NO. ______

In the Supreme Court of the United States
RICKEY NEWSOME,
Petitioner,
–v–

RSL FUNDING, LLC; RSL SPECIAL-IV, LIMITED PARTNERSHIP,
Respondents.

On Petition for Writ of Certiorari to
The Supreme Court of Texas

APPENDIX IN SUPPORT OF PETITIONER RICKEY NEWSOME’S
APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
EARL S. NESBITT

Supreme Court Bar No. 310166

COUNSEL OF RECORD FOR PETITIONER RICKEY NEWSOME
NESBITT, VASSAR & MCCOWN, LLP
15851 DALLAS PARKWAY, SUITE 800
ADDISON, TEXAS 75001
(972) 371-2411
ENESBITT@NVMLAW.COM

July 31, 2019

APPENDIX IN SUPPORT OF PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY
ENFORCEMENT OF JUDGMENT – Page 1

APPENDIX
1.

Texas Supreme Court’s opinion dated December 21, 2018

2.

Texas Supreme Court Judgment dated December 21, 2018

3.

Texas Supreme Court’s decision on Motion for Rehearing dated March 29, 2019

4.

Texas Supreme Court Mandate dated March 29, 2019

5.

December 14, 2018 Letter from RSL Funding, LLC CEO Stewart Feldman to
Arbitrator Scott Link re: expectation of upcoming favorable decision from
Texas Supreme Court and request for immediate arbitration

6.

December 14, 2018 E-Mail from Arbitrator Link, responding to Mr. Feldman

7.

December 21, 2018 E-mail from Mr. Feldman to Arbitrator Link re: Texas
Supreme Court Opinion

8.

December 21, 2018 E-Mail from Arbitrator Link re: dates for arbitration

9.

December 21, 2018 E-mail from RSL’s lawyer Andy Paredes to Newsome’s
lawyer, Earl Nesbitt

10.

December 21, 2018 E-mails between Andy Paredes and Earl Nesbitt

11.

January 2, 2019 E-mails between Andy Paredes and Earl Nesbitt

12.

March 29, 2019 E-Mail from Andy Paredes to Arbitrator Link re: denial of
rehearing and request for immediate arbitration

13.

March 29, 2019 E-Mail from Arbitrator Link responding to Mr. Paredes

14.

April 2, 2019 E-Mail from Earl Nesbitt to Andy Paredes and Arbitrator Link
re: Newsome’s plans to appeal to United States Supreme Court

15.

April 2, 2019 E-mail from Andy Paredes responding to Earl Nesbitt’s April 2,
2019 E-mail

16.

April 2, 2019 E-mail from Earl Nesbitt confirming his participation in
conference call with Arbitrator Link and lawyers for RSL

17.

April 4 E-mail from Mr. Feldman e-mail to Arbitrator Link and Earl Nesbitt
telephone call with Mr. Newsome

APPENDIX IN SUPPORT OF PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY
ENFORCEMENT OF JUDGMENT – Page 2

18.

Affidavit of Rickey Newsome dated April 16, 2019

19.

April 4, 2019 E-mail from Earl Nesbitt to Mr. Paredes and Mr. Feldman re:
contact with Mr. Newsome and participation in April 5, 2019 conference call

20.

April 5, 2019 E-mail from Arbitrator Link to counsel regarding abatement of
arbitration if case further appealed

21.

May 22, 2019 E-filing receipt, confirming RSL’s submission of Order Referring
Case to Arbitration

22.

May 24, 2019 E-mail from Andy Paredes to Arbitrator Link re: signed
Arbitration Order

23.

May 29, 2019 E-Mail from Arbitrator Link to counsel re: decision to proceed with

arbitration

24.

Transfer Agreement between RSL Funding, LLC and Rickey Newsome dated
September 24, 2013 (containing arbitration provision)

25.

Arbitration Scheduling Order signed by Arbitrator Link

26.

Texas Supreme Court’s Order denying Newsome’s Motion to Stay

27.

Dallas Court of Appeals Order on RSL Funding, LLC’s Emergency Motion to Stay

APPENDIX IN SUPPORT OF PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY
ENFORCEMENT OF JUDGMENT – Page 3

EXHIBIT 1

Neutral
As of: June 17, 2019 6:25 PM Z

RSL Funding, LLC v. Newsome
Supreme Court of Texas
October 9, 2018, Argued; December 21, 2018, Opinion Delivered
NO. 16-0998
Reporter
569 S.W.3d 116 *; 2018 Tex. LEXIS 1315 **; 62 Tex. Sup. J. 253; 2018 WL 6711316

Prior History: [**1] ON PETITION FOR REVIEW
FROM THE COURT OF APPEALS FOR THE FIFTH
DISTRICT OF TEXAS.

over which order controlled was not an arbitrable issue
despite the existence of an arbitration agreement that
assigned issues of arbitrability to the arbitrator. 559
S.W.3d 169, 175 (Tex. App.—Dallas 2016) (mem. op.).
Because the parties agreed to have the arbitrator decide
issues of arbitrability, [**2] we conclude that the court of
[*119] appeals erred in determining that the dispute
here was one that could not be arbitrated. Accordingly,
we reverse the court of appeals' judgment and remand
the case to the trial court with instructions to grant the
motion to compel arbitration.

RSL Funding, LLC v. Newsome, 559 S.W.3d 169, 2016
Tex. App. LEXIS 9621 (Tex. App. Dallas, Aug. 30, 2016)

I

RSL FUNDING, LLC AND RSL SPECIAL-IV LIMITED
PARTNERSHIP, PETITIONERS, v. RICKEY
NEWSOME, RESPONDENT
Subsequent History: Rehearing denied by RSL
Funding, LLC v. Newsome, 2019 Tex. LEXIS 302 (Tex.,
Mar. 29, 2019)

Counsel: For RSL Funding, LLC, RSL Special-IV
Limited Partnership, Petitioners: E. John Gorman, Lead
Attorney, The Feldman Law Firm LLP, Houston TX.
For Rickey Newsome, Respondent: Earl S. Nesbitt,
Lead Attorney, Patrick Paul Sicotte, Nesbitt, Vassar &
McCown, L.L.P., Addison TX.
Judges: JUSTICE DEVINE delivered the opinion of the
Court.
Opinion by: John P. Devine

Opinion
[*118] The Structured Settlement Protection Act
requires court approval to validate the transfer of a
payee's
structured-settlement-payment
rights
to
another. TEX. CIV. PRAC. & REM. CODE § 141.004. The
court here approved the transfer but did so in two
different orders, creating a dispute between the parties
over which order should control. One of the parties
moved to compel arbitration of this dispute and others
under an arbitration provision included in their transfer
agreement. The trial court denied the motion, and the
court of appeals affirmed, concluding that the dispute

Rickey Newsome settled a personal injury suit several
decades ago and has since received structured
settlement payments from Allstate Insurance Company.
RSL Funding and its related entities offer lump-sum
payments
to
purchase
structured-settlement
agreements from recipients like Newsome. Newsome
assigned 120 monthly payments of varying amounts to
RSL in exchange for a payment of $53,000. Their
contract included a mandatory arbitration clause that
identified the Federal Arbitration Act as the controlling
law. The clause delegates to an arbitrator not only
contractual disputes but also whether a dispute is
arbitrable. The relevant part reads:
Disputes under this Agreement of any nature
whatsoever . . . shall be resolved through demand
by any interested party to arbitrate the dispute. . . .
The parties hereto agree that the issue of
arbitrability shall likewise be decided by the
arbitrator, and not by any other person. [**3] That
is, the question of whether a dispute itself is subject
to arbitration shall be decided solely by the
arbitrator and not, for example by any court.
Under the Structured Settlement Protection Act, a court
must approve a transfer of structured-settlement
payments before the transfer is effective. TEX. CIV.

Page 2 of 7
569 S.W.3d 116, *119; 2018 Tex. LEXIS 1315, **3
PRAC. & REM. CODE § 141.004. The court that approves
the transfer is the court of original jurisdiction that
authorized the settlement. Id. § 141.002(2)(A). But if the
original court no longer has jurisdiction, approval must
be sought from a district court or other designated court
in the payee's county. Id. § 141.002(2)(B). Because the
original court signed the judgment on the structured
settlement decades before this transfer, it no longer
retained jurisdiction, and so RSL petitioned a district
court in Newsome's resident county to approve the
agreement.
The district court signed an order approving the transfer
that included the requisite statutory findings. See id. §
141.004 (stating the "express findings" the court must
make to approve the transfer). The order, however,
included an additional requirement in a handwritten note
by the judge that provided: "Transferee to pay Mr.
Newsome the sum of $53,000 in 10 days from this order
being signed or transferee [**4] will be required to pay
Mr. Newsome $106,000." The transferee did not pay the
$53,000 within the allotted ten days.
Seven months later, Newsome wrote a letter to the
judge complaining that he had not been paid. The
district court responded by ordering the parties to
mediation, which resulted in an agreed motion to
remove the ten-day payment penalty from the order
approving the transfer. The court granted the motion
and issued a corrected order nunc pro tunc.
After several more months passed without payment,
Newsome filed a new pleading in the district court, titled
"Original Petition for Bill of Review and Application for
Injunctive Relief." This pleading attacked both the
original and nunc pro tunc approval orders. Newsome
argued the nunc pro tunc order was void because it
corrected a judicial error after the expiration of the
court's plenary power. He further asserted that the
court's original transfer order therefore remained in full
force and effect and subject to enforcement. But
Newsome also asked the district court, in the
alternative, to vacate the original [*120] approval order,
although he did not assert a basis for doing so or
specifically request that relief in the bill of review's [**5]
prayer. A subsequent motion for summary judgment
elaborated on the basis for Newsome's alternative
request, asserting that the original transfer order should
be vacated because RSL had not complied with it. RSL
responded that it had not yet paid Newsome because of
his refusal to accept the agreed purchase price of
$53,000 and his failure to cooperate in transferring the
settlement payments to RSL. RSL moved to compel

arbitration of the dispute under the parties' contract,
while Newsome pursued his motion for summary
judgment. The district court granted Newsome's
summary judgment motion in part, declaring the nunc
pro tunc order void, but the court did not decide whether
the original transfer order should also be set aside.
Instead, the court reserved judgment on Newsome's
alternative claim for future proceedings. The court also
denied RSL's motion to compel arbitration.
RSL took an interlocutory appeal from the district court's
order denying arbitration. See TEX. CIV. PRAC. & REM.
CODE § 51.016 (authorizing interlocutory appeal). In a
divided decision, the court of appeals affirmed the
district court's order, reasoning that Newsome's bill of
review, which challenged the approval orders' validity,
offered "nothing for [**6] an arbitrator to determine"
because approval of such transfers under the Structured
Settlement Protection Act was a "purely judicial
function." 559 S.W.3d at 175. A dissenting justice
disagreed, arguing that the parties had agreed to
arbitrate all matters raised in Newsome's bill of review,
including whether the nunc pro tunc order was effective
and whether the penalty added by the trial court
properly altered the parties' transfer agreement. Id. at
176 (Schenck, J., dissenting).
RSL petitioned this Court to review the order denying
arbitration, and we granted its petition.

II
The U.S. Supreme Court has explained that there are
three types of disagreements in the arbitration context:
(1) the merits of the dispute; (2) whether the merits are
arbitrable; and (3) who decides the second question.
First Options of Chi., Inc. v. Kaplan, 514 U.S. 938, 942,
115 S. Ct. 1920, 131 L. Ed. 2d 985 (1995). The default
rule for the third question is that arbitrability is a
threshold matter for the court to decide. Forest Oil Corp.
v. McAllen, 268 S.W.3d 51, 61 (Tex. 2008). But a
contractual agreement to submit the arbitrability
question to an arbitrator is valid and must be treated like
any other arbitral agreement. First Options, 514 U.S. at
943. Arbitration clauses that assign gateway questions
such as the arbitrability of the dispute are an established
feature of arbitration law. Rent-A-Ctr., W., Inc. v.
Jackson, 561 U.S. 63, 68-69, 130 S. Ct. 2772, 177 L.
Ed. 2d 403 (2010). This Court, too, has held [**7] that
courts must enforce a valid arbitration agreement that
places arbitrability with the arbitrator rather than a court.
Forest Oil, 268 S.W.3d at 61.

Page 3 of 7
569 S.W.3d 116, *120; 2018 Tex. LEXIS 1315, **7
RSL contends that the court of appeals impermissibly
decided arbitrability itself in the face of a valid arbitration
clause that explicitly assigns arbitrability disputes to the
arbitrator. Newsome does not challenge the validity or
effect of the arbitration clause itself. He contends that
the arbitration clause is inapplicable here because this
dispute must be decided by a court due to the bill of
review and Structured Settlement Protection Act
context. He also submits that under the Structured
Settlement Protection Act no binding agreement
(including an arbitration provision therein) exists until a
court resolves [*121] the present dispute regarding the
validity of the approving court's order.
The dispute thus presents two legal questions for us to
decide. First, does an arbitral delegation clause in a
court-approved
structured
settlement
transfer
agreement apply when the validity of the approving
court order is at issue? The court of appeals held it does
not. 559 S.W.3d at 175. Second, does a dispute about
the validity of approving court orders under the
Structured Settlement Protection [**8] Act affect the
existence of an enforceable arbitration agreement? The
court of appeals did not answer this question. Our
review of these legal determinations is, of course, de
novo. Forest Oil, 268 S.W.3d at 55 & n.9.

III
We first consider the court of appeals' conclusion and
Newsome's arguments that the case should not be sent
to arbitration because of its unique circumstances-a bill
of review attacking approving court orders under the
Structured Settlement Protection Act. RSL argues that
because the parties agreed to delegate arbitrability to
the arbitrator the weight of authority required the dispute
be sent to arbitration. We agree.

A
A valid arbitration agreement creates a strong
presumption in favor of arbitration. Rachal v. Reitz, 403
S.W.3d 840, 850 (Tex. 2013). Both Texas and federal
law require the enforcement of valid agreements to
arbitrate. 9 U.S.C. § 2; TEX. CIV. PRAC. & REM. CODE §
171.021. Arbitrators are competent to decide any legal
or factual dispute the parties agree to arbitrate. 14 Penn
Plaza LLC v. Pyett, 556 U.S. 247, 268-69, 129 S. Ct.
1456, 173 L. Ed. 2d 398 (2009); Shearson/American
Exp., Inc. v. McMahon, 482 U.S. 220, 232, 107 S. Ct.
2332, 96 L. Ed. 2d 185 (1987). Generally, a court may

consider an arbitration agreement's terms to determine
which issues must be arbitrated. Forest Oil, 268 S.W.3d
at 61. But as parties have a right to contract as they see
fit, they may agree to arbitral delegation clauses that
send gateway issues such as arbitrability to the
arbitrator. Rent-A-Ctr., 561 U.S. at 68-70; Forest Oil,
268 S.W.3d at 61 & n.38. When faced with [**9] such
an agreement, courts have no discretion but to compel
arbitration unless the clause's validity is challenged on
legal or public policy grounds. Forest Oil, 268 S.W.3d at
61. So the proper procedure is for a court to first
determine if there is a binding arbitration agreement that
delegates arbitrability to the arbitrator. If there is such an
agreement, the court must then compel arbitration so
the arbitrator may decide gateway issues the parties
have agreed to arbitrate. See id.
The court of appeals, however, did not limit its inquiry to
the existence of a valid arbitration agreement; it instead
refused arbitration based on its own determination of the
arbitrability of the dispute. It did this apparently because
"the unique facts of this case" permitted it to disregard
the parties' agreement. See 559 S.W.3d at 175.
Newsome defends the court of appeals' decision,
contending that the court must decide the issues
presented in his bill of review because the court has
exclusive jurisdiction to hear this direct attack on its prior
final judgment. See Richards v. Comm'n for Lawyer
Discipline, 81 S.W.3d 506, 508 (Tex. App.—Houston
[1st Dist.] 2002, no pet.) (dismissing a bill of review
because it was not filed in the court that rendered the
judgment under attack). He further relies on authorities
explaining that a court's subject matter [**10]
jurisdiction comes from operation of law and cannot be
created by consent. See Dubai Petroleum [*122] Co. v.
Kazi, 12 S.W.3d 71, 76 (Tex. 2000); Fed. Underwiters
Exch. v. Pugh, 141 Tex. 539, 174 S.W.2d 598, 600
(Tex. 1943). Combining these disparate authorities,
Newsome concludes that the district court's jurisdiction
is not only to the exclusion of other courts, but also to
the exclusion of arbitration.
Unlike Richards, Newsome's bill of review was not filed
in the wrong court, and none of Newsome's authorities
concern arbitration or have any apparent application
here. That a court has jurisdiction over a bill of review to
the exclusion of all other courts does not speak to the
issue of arbitrability. Arbitrators derive their jurisdiction
over disputes from parties' consent and the law of
contract. Volt Info. Scis., Inc. v. Bd. of Trs. of Leland
Stanford Jr. Univ., 489 U.S. 468, 479, 109 S. Ct. 1248,
103 L. Ed. 2d 488 (1989); Americo Life, Inc. v. Myer,

Page 4 of 7
569 S.W.3d 116, *122; 2018 Tex. LEXIS 1315, **10
440 S.W.3d 18, 21 (Tex. 2014). The Federal Arbitration
Act preempts any state law that would interfere with
parties' freedom to contract to arbitrate their disputes.
Kindred Nursing Ctrs. Ltd. P'ship v. Clark, 137 S. Ct.
1421, 1426, 197 L. Ed. 2d 806 (2017); In re Olshan
Found. Repair Co., 328 S.W.3d 883, 888 (Tex. 2010).
Reading grants of exclusive jurisdiction over a matter to
a court to prohibit delegation of the matter to an
arbitrator misunderstands arbitration and the preemptive
effect of the Federal Arbitration Act.
Moreover, we have held that parties may contract to
arbitrate issues even when the law vests some related
exclusive power in a court. For example, in CVN Group,
Inc. v. Delgado the parties [**11] signed an expansive
arbitration agreement as part of a contract for
construction of a home. 95 S.W.3d 234, 235 (Tex.
2002). After the buyers breached the contract, an
arbitrator awarded the home builder damages and a
mechanic's lien on the home. Id. The trial court refused
to allow foreclosure on the lien and the court of appeals
affirmed, reasoning the Constitution and Property
Code's requirement that mechanic's liens be foreclosed
by judicial action also required judicial review and
approval of mechanic's liens. Id. at 236-37. We
reversed, holding the arbitrator-awarded lien could be
enforced because it did not contravene constitutional
and statutory protections. Id. at 239. The dissent
reasoned the mechanic's lien statute's requirement that
"[a] mechanic's lien may be foreclosed only on judgment
of a court" meant arbitrators could not decide disputes
on underlying issues involving a lien's existence. Id. at
247-48 (Hankinson, J., dissenting). The Court
disagreed, however, concluding this requirement did not
prevent arbitration of issues related to the existence of a
mechanic's lien. See id. at 239-40.
Newsome's argument echoes the dissent in CVN
Group. Newsome contends that because the Structured
Settlement Protection Act requires a court to approve
the transfer [**12] of structured-settlement-payment
rights, and because only the original court has
jurisdiction to decide a bill of review attacking its final
approval order, the issues raised in this context cannot
be decided by an arbitrator. But as with the mechanic's
lien in CVN Group, we find no inconsistency here
between the statute's requirement that courts approve
structured-settlement transfers and the arbitration of
issues related to that approved transfer. Just as in CVN
Group where the statute assigned foreclosure on
mechanic's liens to a court, here the Legislature has
assigned approval of structured-settlement transfers to
the courts. TEX. CIV. PRAC. & REM. CODE § 141.004. As

was the case with the mechanic's liens statute in CVN
Group, the Structured Settlement Protection Act does
not speak to arbitration at all. See id. §§ 141.001-007.
While the statute requires a court to approve a
settlement-payment [*123] transfer, it is silent as to
who should decide disputes that arise after such
approval, including disputes that require application of
the court order itself. See id. In the face of such silence,
we must apply the general rule that arbitrators are
competent to decide any type of dispute. See 14 Penn
Plaza LLC v. Pyett, 556 U.S. 247, 268-69, 129 S. Ct.
1456, 173 L. Ed. 2d 398 (2009). Even if the statute
prohibited arbitration of [**13] certain disputes that
would arise from the approval of structured-settlement
transfers, the Federal Arbitration Act would preempt
such a restraint on the freedom of contract in arbitration.
See Olshan, 328 S.W.3d at 888.
Here, the courts below have not questioned the validity
of parties' arbitration clause. We thus have no choice
but to send this dispute to arbitration for the arbitrator to
at least decide arbitrability. Accordingly, the court of
appeals erred in affirming the trial court's refusal to
compel arbitration on the grounds that the dispute in this
case was not arbitrable.

B
RSL urges us to go further and read the court of
appeals' decision as applying the "wholly groundless"
exception and to explicitly reject such an exception in
Texas. The wholly groundless exception is a doctrine
applied by some federal appellate courts to deny
arbitration even in the face of an arbitral delegation
clause.1 Under the wholly groundless exception, the
court may decline to enforce an arbitral delegation
clause when no reasonable argument exists that the
parties intended the arbitration clause to apply to the
claim before it. Turi v. Main St. Adoption Servs., LLP,
633 F.3d 496, 507 (6th Cir. 2011). Here, the court of
appeals concluded that the dispute over the validity of
the court's approval [**14] orders was "not relevant"
and "had no bearing" on the parties' arbitrable disputes.

1 The

Fifth, Sixth and Federal Circuits apply the exception.
See, e.g., Douglas v. Regions Bank, 757 F.3d 460, 462 (5th
Cir. 2014); Turi v. Main St. Adoption Servs., LLP, 633 F.3d
496, 507 (6th Cir. 2011); Qualcomm Inc. v. Nokia Corp., 466
F.3d 1366, 1371 (Fed. Cir. 2006). The Tenth and Eleventh
Circuits have explicitly rejected it. Jones v. Waffle House, Inc.,
866 F.3d 1257, 1269 (11th Cir. 2017); Belnap v. Iasis
Healthcare, 844 F.3d 1272, 1286 (10th Cir. 2017).

Page 5 of 7
569 S.W.3d 116, *123; 2018 Tex. LEXIS 1315, **14
559 S.W.3d. at 175. RSL contends that this was in
effect an adoption of the wholly groundless exception.

other reason such as being contrary [**16] to public
policy.

But the court of appeals does not mention the exception
or discuss the federal cases that apply it. Nor has
Newsome asked us to adopt the exception or any
similar "relevance test" to deny enforcement of an
otherwise valid arbitration agreement. The court of
appeals did not refuse to enforce arbitration because it
thought there was no reasonable argument that the
arbitration agreement covered the parties' dispute. It
refused to enforce arbitration because it decided this
case offered "nothing for an arbitrator to determine." Id.
In other words, the court decided the nature of the
dispute made it non-arbitrable. It erred by skipping the
first step in which it should have considered whether it
could decide arbitrability in the face of the arbitral
delegation clause. This skipped step is where the wholly
groundless exception would come into play if the court
of appeals had intended to apply it. We conclude the
validity of a wholly groundless exception or similar
relevance test is not properly before us. We need not
go [**15] any further than to hold the court of appeals
erred by deciding arbitrability itself.

There are three distinct ways to challenge the validity of
an arbitration clause: (1) challenging the validity of the
contract as a whole; (2) challenging the validity of the
arbitration provision specifically; and (3) challenging
whether an agreement exists at all. In re Morgan
Stanley & Co., 293 S.W.3d 182, 187 (Tex. 2009). These
distinctions arise from the U.S. Supreme Court decision
Prima Paint Corp. v. Flood & Conkling Manufacturing
Co., which held that arbitration clauses are separable
from the contracts in which they are embedded. 388
U.S. 395, 404, 87 S. Ct. 1801, 18 L. Ed. 2d 1270 (1967).
Because an arbitration clause is separable from the rest
of the contract, the arbitrator decides the first type of
challenge. Rent-A-Ctr., W., Inc. v. Jackson, 561 U.S. 63,
70, 130 S. Ct. 2772, 177 L. Ed. 2d 403 (citing Prima
Paint, 388 U.S. at 403-04). Classic contract defenses
such as unconscionability, illegality and fraudulent
inducement fall under this first type of challenge; the
arbitrator decides them if they are alleged only against
the contract as a whole. E.g., id. at 66
(unconscionability); Buckeye Check Cashing, Inc. v.
Cardegna, 546 U.S. 440, 443, 126 S. Ct. 1204, 163 L.
Ed. 2d 1038 (illegality); Prima Paint, 388 U.S. at 402-04
(fraudulent inducement). But Prima Paint does not
encompass contract-formation challenges. Morgan
Stanley, 293 S.W.3d at 187-88 & nn. 5-6. Contract
formation defenses—such as whether a party ever
signed a contract, whether a signor had authority to bind
a principal, or whether the signor had capacity to
assent—are thus threshold issues [**17] to be decided
by the court. Id. at 189. This is because the Federal
Arbitration Act requires a court to be "satisfied that the
making of the agreement for arbitration . . . is not in
issue" before compelling arbitration. 9 U.S.C. § 4. The
Texas Arbitration Act, too, requires that the existence of
an agreement to arbitrate be proven to the court before
the court must compel arbitration. TEX. CIV. PRAC. &
REM. CODE § 171.021(b).

IV
Because it decided the case on arbitrability grounds, the
court of appeals did not address Newsome's arguments
that the [*124] agreement and thus the arbitration
clause never came into effect or was unenforceable. As
explained above, this was error; the court should have
first decided whether a valid arbitration agreement
exists. When presented with an issue the court of
appeals could have but did not decide, we may either
remand the case or consider the issue ourselves. TEX.
R. APP. P. 53.4. We choose to decide this issue.
Newsome argues no enforceable arbitration agreement
exists here because both of the district court's approval
orders were void. In doing so, he relies on two cases
that hold structured-settlement-transfer agreements are
not validly formed or enforceable without court approval.
See Wash. Square Fin., LLC v. RSL Funding, LLC, 418
S.W.3d 761, 770 (Tex. App.—Houston [14th Dist.] 2013,
pet. denied); In re Rapid Settlements, Ltd., 202 S.W.3d
456, 461 (Tex. App.—Beaumont 2006, orig. proceeding
[mand. denied]) (per curiam). Under this logic,
Newsome argues that he cannot be compelled to
arbitrate under the agreement either because the
agreement never took effect without a valid court order
or because the agreement cannot be enforced for some

Here, Newsome does not challenge the arbitration
clause specifically. Rather, he contends that no
enforceable arbitration agreement exists because the
entire transfer agreement never came into existence or
is not enforceable. Under the Structured Settlement
Protection Act, "[n]o direct or indirect transfer of
structured settlement payment rights shall be effective .
. . unless the transfer has been approved in advance in
a final court order" based on specified express findings.
TEX. CIV. PRAC. & REM. CODE § 141.004. [*125]
Assuming for the sake of argument that this provision

Page 6 of 7
569 S.W.3d 116, *125; 2018 Tex. LEXIS 1315, **17
requires the court to approve the parties' contract and
not merely the structured-settlement-payment transfer,
the effect of this provision on the arbitration clause
depends on whether the challenge is to the contract's
enforceability or its existence. Newsome cites cases
that discuss the statute's [**18] effect on both the
structured-settlement-transfer agreement's existence
and its enforceability. See, e.g., Wash. Square, 418
S.W.3d at 770 (enforceability); Rapid Settlements, 202
S.W.3d at 461 (formation).
For example, in Washington Square, the court of
appeals held that contracts to transfer structuredsettlement-payment rights are unenforceable as
contrary to public policy unless court-approved. 418
S.W.3d at 770. The court, however, did not decide
whether court approval is a condition precedent to the
formation of the contract. Id. at 771 & n.8. The case did
not involve a motion to compel arbitration; the issue was
whether an unapproved contract could support a
tortious-interference claim. Id. at 770-71. Washington
Square is not helpful here because the court did not
consider whether the lack of court approval rendered
the transfer agreement a nullity.
In the arbitration context, the Prima Paint separability
doctrine provides that the arbitrator is to decide any
challenge to the enforceability of an existing contract.
388 U.S. at 404. Any contract defense that attacks the
contract as a whole but does not go to the issue of
contract formation must be decided by the arbitrator.
See,
e.g.,
Rent-A-Ctr.,
561
U.S.
at
66
(unconscionability); Buckeye, 546 U.S. at 443 (illegality);
Prima Paint, 388 U.S. at 402-04 (fraudulent
inducement). Voidness on public policy grounds as in
Washington [**19] Square may provide a basis for
revoking an existing contract but does not mean the
agreement never formed in the first place. See In re
Poly-America, L.P., 262 S.W.3d 337, 348 (Tex. 2008)
(orig. proceeding). Because voidness on public policy
grounds, like illegality, is a defense to the contract's
enforcement, it falls into the category that the Prima
Paint line of cases delegates to the arbitrator. See
Buckeye, 546 U.S. at 446. Consequently, when a party
resisting arbitration argues the whole contract is void for
violation of public policy, the arbitrator, not a court,
decides the issue. We thus cannot decide here whether
a transfer agreement lacking court approval under
section 141.004 is void on public policy grounds or
unenforceable for any other reason that does not go to
contract formation because the doctrine of separability
reserves such decisions for the arbitrator.

Newsome, however, also argues that section 141.004 of
the Structured Settlement Protection Act creates a
condition precedent to contract formation. That indeed
was the holding of a court of appeals in another case
Newsome cites. See Rapid Settlements, 202 S.W.3d at
461. Assuming that holding to be correct, a court would
have an opportunity to decide at the outset whether a
valid court order approved a structured-settlementtransfer agreement because the existence [**20] of the
court order goes to contract formation, which the court
decides before compelling arbitration. See Morgan
Stanley, 293 S.W.3d at 187. Whether we may decide in
this appeal if court approval is an issue of the underlying
contract's formation depends on whether Newsome
properly raised that issue below.
The primary thrust of Newsome's bill of review was for
the trial court to declare the nunc pro tunc order void so
Newsome could enforce the original approval order.
[*126] Because Newsome's bill of review pleads that
the approval order is valid and created an enforceable
contract, the possible voidness of the nunc pro tunc
order does not affect the existence of the agreement to
arbitrate. The contract containing the agreement to
arbitrate exists even if a question exists about whether
the nunc pro tunc order corrected only a clerical error.
Newsome seeks to enforce a contract approved by a
court that contains an arbitration agreement and thereby
concedes the existence of the agreement to arbitrate.
But Newsome's bill of review contains an "alternative"
allegation that both the nunc pro tunc order and the
original approval order are void, and Newsome
mentions that possibility again in his appellate briefing
without explanation. [**21] In fact, Newsome has no
theory to support his conclusory attack on the original
order. He did not even raise the issue in his trial court
brief opposing RSL's motion to compel arbitration.
Indeed, Newsome's petition for bill of review barely
mentions the possibility, and his briefing in this Court is
no better. A brief must provide citations or argument and
analysis for the contentions and failure to do this can
result in waiver. TEX. R. APP. P. 38.1(i), 38.2(a)(1); Ross
v. St. Luke's Episcopal Hosp., 462 S.W.3d 496, 500
(Tex. 2015). Newsome has failed to present any theory,
analysis, or authority that puts the validity of the original
approval order and thus formation of the contract to
arbitrate in issue, and we conclude that the doctrine of
separability reserves to the arbitrator all other questions
raised in the district court. The court of appeals
therefore erred in affirming the trial court's order denying
arbitration.

Page 7 of 7
569 S.W.3d 116, *126; 2018 Tex. LEXIS 1315, **21
****
Having found the court of appeals erred and no merit in
Newsome's alternative grounds to affirm, we reverse the
court of appeals' judgment and remand the case to the
trial court with instructions to grant the motion to compel
arbitration.
John P. Devine
Justice
Opinion Delivered: December 21, 2018

End of Document

EXHIBIT 2

IN THE SUPREME COURT OF TEXAS
444444444444

NO. 16-0998
444444444444

RSL FUNDING LLC AND
RSL SPECIAL-IV LIMITED PARTNERSHIP, PETITIONERS,
v.

RICKEY NEWSOME, RESPONDENT
4444444444444444444444444444444444444444444444444444

ON PETITION FOR REVIEW FROM THE
COURT OF APPEALS FOR THE FIFTH DISTRICT OF TEXAS
4444444444444444444444444444444444444444444444444444

JUDGMENT
THE SUPREME COURT OF TEXAS, having heard this cause on petition for review from
the Court of Appeals for the Fifth District, and having considered the appellate record, briefs, and
counsels’ argument, concludes that the court of appeals’ judgment should be reversed.
IT IS THEREFORE ORDERED, in accordance with the Court’s opinion, that:
1)

The court of appeals’ judgment is reversed;

2)

The cause is remanded to the trial court for further proceedings
consistent with this Court’s opinion; and

3)

Petitioners RSL Funding, et al. shall recover, and Respondent Rickey
Newsome shall pay, the costs incurred in this Court and in the court
of appeals.

Copies of the Court’s judgment and opinion are certified to the Court of Appeals for the Fifth
District and to the District Court of Dallas County, Texas, for observance.
Opinion of the Court delivered by Justice Devine
December 21, 2018
**********

FILE COPY

RE: Case No. 16-0998
COA #: 05-15-00718-CV
STYLE: RSL FUNDING, LLC v. NEWSOME

DATE: 3/29/2019
TC#: DC-14-14580-L

EXHIBIT 3

Today the Supreme Court of Texas denied the motion for
rehearing in the above-referenced cause.

MS. LISA MATZ
CLERK, FIFTH COURT OF APPEALS
600 COMMERCE, SUITE 200
DALLAS, TX 75202-4658
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 16-0998
COA #: 05-15-00718-CV
STYLE: RSL FUNDING, LLC v. NEWSOME

DATE: 3/29/2019
TC#: DC-14-14580-L

Today the Supreme Court of Texas denied the motion for
rehearing in the above-referenced cause.

MR. PATRICK PAUL SICOTTE
NESBITT, VASSAR & MCCOWN, L.L.P.
15851 DALLAS PARKWAY, SUITE 800
ADDISON, TX 75001
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 16-0998
COA #: 05-15-00718-CV
STYLE: RSL FUNDING, LLC v. NEWSOME

DATE: 3/29/2019
TC#: DC-14-14580-L

Today the Supreme Court of Texas denied the motion for
rehearing in the above-referenced cause.

DISTRICT CLERK DALLAS COUNTY
DALLAS COUNTY COURTHOUSE
GEORGE L. ALLEN, SR. COURTS BUILDING
600 COMMERCE, SUITE 103
DALLAS, TX 75202
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 16-0998
COA #: 05-15-00718-CV
STYLE: RSL FUNDING, LLC v. NEWSOME

DATE: 3/29/2019
TC#: DC-14-14580-L

Today the Supreme Court of Texas denied the motion for
rehearing in the above-referenced cause.

MR. E. JOHN GORMAN
THE FELDMAN LAW FIRM LLP
TWO POST OAK CENTRAL
1980 POST OAK BOULEVARD, SUITE 1900
HOUSTON, TX 77056-3877
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 16-0998
COA #: 05-15-00718-CV
STYLE: RSL FUNDING, LLC v. NEWSOME

DATE: 3/29/2019
TC#: DC-14-14580-L

Today the Supreme Court of Texas denied the motion for
rehearing in the above-referenced cause.

MR. EARL S. NESBITT
NESBITT, VASSAR & MCCOWN, L.L.P.
15851 DALLAS PARKWAY, SUITE 800
ADDISON, TX 75001
* DELIVERED VIA E-MAIL *

FILE COPY

EXHIBIT 4

IN THE SUPREME COURT OF TEXAS
NO. 16-0998
RSL FUNDING, LLC AND RSL SPECIAL-IV LIMITED PARTNERSHIP,
PETITIONER
V.

RICKEY NEWSOME, RESPONDENT
MANDATE
To the Trial Court of Dallas County, Greetings:
Before our Supreme Court on December 21, 2018, the Cause, upon petition for review, to
revise or reverse your Judgment.
No. 16-0998 in the Supreme Court of Texas
No. 05-15-00718-CV in the Fifth Court of Appeals
No. DC-14-14580-L in the 193rd District Court of Dallas County, Texas, was
determined; and therein our said Supreme Court entered its judgment or order in these words:
THE SUPREME COURT OF TEXAS, having heard this cause on petition for review
from the Court of Appeals for the Fifth District, and having considered the appellate record,
briefs, and counsels’ argument, concludes that the court of appeals’ judgment should be reversed.
IT IS THEREFORE ORDERED, in accordance with the Court’s opinion, that:
1)

The court of appeals’ judgment is reversed;

2)

The cause is remanded to the trial court for further proceedings
consistent with this Court’s opinion; and

3)

Petitioners RSL Funding, et al. shall recover, and Respondent
Rickey Newsome shall pay, the costs incurred in this Court and in
the court of appeals.

Page 1 of 2

FILE COPY

Copies of the Court’s judgment and opinion are certified to the Court of Appeals for the
Fifth District and to the District Court of Dallas County, Texas, for observance.
Wherefore we command you to observe the order of our said Supreme Court in this
behalf, and in all things to have recognized, obeyed, and executed.
BY ORDER OF THE SUPREME COURT OF THE STATE OF TEXAS,
with the seal thereof annexed, at the City of Austin,
this the 29th day of March, 2019.
Blake A. Hawthorne, Clerk

By Monica Zamarripa, Deputy Clerk

Page 2 of 2

EXHIBIT 5

Earl Nesbitt
From:

Sent:
To:

Cc:
Subject:
Attachments:

Stewart A. Feldman <sfeldman@feldlaw.com>
Monday, December 17, 2018 10:53 AM
Dion Ramos(dionramos@dionramos.com); scottrlink@gmail.com
Earl Nesbitt
Update on Newsome Arbitration
Ltr to Ramos and Link.pdf; Ex 1 - arb demand.pdf; Ex 2 - S. Link Appointment.pdf; Ex 3 order temp inj.pdf

Please see attached.

RSL Fl NDl"<G, LLC i 1980 Po:::;r OAK Bl VD, STE l 975 I HOUSTON. TEXAS 77056
TEL 888.906.5849 I FAX 877.850.3700

\,Vebsite I t\,lap i Twitter I Facebook

CONFIDENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transmittal, the
information contained in this message is privileged and confidential information intended for the use of the
individual or entity name above. If the reader of this message is not intended recipient, or the employee or agent
responsible to deliver it to the intended recipient, you are hereby notified that any dissemination, distribution or
copying of this communication is strictly prohibited. If you have received this communication in error, please
1

RSL FUNDING, LLC
"WHY WAIT?"

PHONE (713) 850-0550
FAX (713) 600-0066
s [c!dmatt((1lRS I .Fundint>:.com

NATIONAL PROCESSING CENTER
Two POST OAK CENTRAL
1980 POST OAK BLVD., SUITE 1975
HOUSTON ) TEXAS 77056-3899

TOLL-FREE PHONE (877) 850-5600
TOLL-FREE FAX (877) 850-8700

December 14, 2018
Hon. Dion Ramos
Conflict Resolutions Solutions, PLLC
Washington Centre
4601 Washington Avenue, Suite 200
Houston, Texas 77007-5433

via: dionramos@dionramos.com

and
Hon. Scott Link
Law Office of Scott Link
440 Louisiana, Suite 2330
Houston, Texas 77002
Re:

email: scottrlink@gmail.com

Arbitration filed November 26, 2014 with Conflict Resolution Solutions, PLLC RSL Funding, LLC vs. Rickey Newsome

Dear Judges Ramos and Link:
As the year vvinds down, we want to let you know the status of the Newsom arbitration pending
before Conflict Resolution Solutions, PLLC ("CRS"). The purpose of this letter is to apprise you
of events that have transpired since Judge Link was selected by Judge Ramos to be the arbitrator.
We are unclear whether Judge Link is still the pending arbitrator in this case.
By way of background, on November 26, 2014, RSL Funding, LLC ("RSL'') sent an Arbitration
Demand to CRS alleging various causes of actions against Rickey Newsome of Dallas, TX. \Vhen
the Arbitration Demand was sent to CRS, RSL asked for the appointment of an arbitrator (see
attached Exhibit 1 ). On December 1, 2014, Judge Dion Ramos, as lead neutral for CRS, appointed
Judge Link as the arbitrator (see attached appointment, Exhibit 2). Because RSL anticipated Mr.
Newsome would resist arbitration (as has been proven by his actions over the last four years), RSL
also filed a Motion to Compel Arbitration with the 6Pt Judicial District Court, Harris County,
Texas. Before the 61 st District Court could rule on RSL's motion, Mr. Newsome's counsel got a
Dallas Cmmty District Court judge to enter an order enjoining RSL from taking any further action
in: (1) the arbitration before Judge Link; or (2) the 6l 5t Judicial District Court (see Exhibit 3
attached).

R: \cust\newsome, rickey\!ega !\a rb\crs update 12 .14.18.docs.docx

The above explains why Judge Link has heard little from any of the parties since his appointment.
To be sure, even though a Dallas judge signed an order directing the parties to settle all disputes
in arbitration in c01mection with approving the transfer order, that same judge took unusually
aggressive actions to prevent any aspect of the arbitration or the parties' agreed to venue from
occurring.
As a result of the Dallas judge's actions, RSL has been prosecuting its rights to arbitrate against
Mr. Newsome in the appellate courts of Texas. At issue on appeal is whether a court or the
arbitrator determines the gateway issue of arbitrability as expressly provided by the parties' various
arbitration agreements as set forth in the delegation clauses. At issue in the underlying arbitration
is the purchase price (which the Court unilaterally doubled from $53,000 to $106,000) and Mr.
Newsome's multiple breaches of contract ) including his refusal to sign the ancillary documents
allowing him to be paid the original $53,000 purchase price and those related to his refusal to
arbitrate as he had otherwise agreed to do in writing. Mr. Newsome has caused immense expense
to RSL which it seeks to recover in arbitration.
On October 9, 2018, the Texas Supreme Court heard oral argument in the matter currently before
it on appeal. While the Dallas Court of Appeals had voted 2-1 against RSL; the Supreme Court
granted writ and heard full oral argument. (The Court of Appeals dissent was by a well-respected
justice who is board certified in appellate law.) The matter is now pending a decision by the Texas
Supreme Court. RSL believes a favorable opinion enforcing RSL's rights to arbitrate will be
issued relatively soon.
In anticipation of Mr. Newsome being compelled to arbitrate, RSL wants to make sure Judge Link,
or an arbitrator appointed by CRS (as is provided for in the parties' agreements) will proceed in
determining the gateway issue of arbitrability and ultimately resolving the parties' substantive
disputes (especially given the four year, costly delay thus far), all in accordance with Texas and
federal law and the parties' contractual agreements.
To be clear, RSL is not asking for any action to be taken at this time. However, RSL wants to
apprise CRS of what has transpired and that, when asked, it is prepared to appoint an arbitrator
(whether it be Judge Link or someone else as determined by CRS) to timely see the arbitration
through to conclusion. RSL is especially concerned that Judge Link's jurisdiction may have
expired given the four-month time limit for concluding a matter as set forth in the parties }
agreement. It is unclear when the four-month time frame begins (e.g., whether as of the arbitrator's
appointment, the arbitrator's acceptance of his appointment, or otherwise).

R:\cust\newsome, rickey\legal\arb\crs update 12.14.18.docs.docx

Please note that I have copied Mr. Newsome's counsel on this update. We will apprise you of
further developments.
�)ncerely,

,' \"\

Stewa11 A. Feldman
Chief Executive Officer
enclosures
cc:

Earl S. Nesbitt (with enclosures)
Nesbitt, Vassar & McCoVvn, L.L.P.
15851 Dallas Parkway, Suite 800
Addison, Texas 75001

via: enesbitt@nvmlaw.com

R:\cust\newsome, rickey\corresp\crs update 12.15.18.docs.docx

EXHIBIT 6

Earl Nesbitt
From:

Sent:
To:

Cc:
Subject:

Scott Link <scottrlink@gmail.com>
Monday, December 17, 2018 11 :00 AM
Stewart A Feldman
Dion Ramos(dionramos@dionramos.com); Earl Nesbitt
Re: Update on Newsome Arbitration

Dear All, I am certainly ready to proceed with the arbitration between the parties once there is a definitive ruling on the
viability of the arbitration agreement and the Dallas Court's restraining order. Normally, the arbitration agreement pre
empts most state court challenges. Please keep me posted. Scott
On Mon, Dec 17, 2018 at 10:53 AM Stewart A. Feldman <sfeldman@feldlaw.com> wrote:

Please see attached.

STEWART A. FELDMAN
sfeld man@RSLFunding.com
WWW. RSLFunding.com

RSL

FUNDING

RSL Ft:NDI?\TG, LLC I 1980 POST OAK BLVD, STE l 975 I HOUSTO!\, TEXAS 77056
TEL 888.906.5849 I FAX 877.850.8700
1

EXHIBIT 7

Earl Nesbitt
Stewart A. Feldman <sfeldman@feldlaw.com>
Friday, December 21, 2018 10:39 AM
Scott Link; Dion Ramos(dionramos@dionramos.com)
Earl Nesbitt
RE: Update on Newsome Arbitration
newsome opinion.pdf

From:
Sent:
To:

Cc:

Subject:
Attachments:

Dear Judges Ramos a11d Link:
Please see a decision of the Texas Supreme Court issued today upholding the right of the
long-delayed Newsome matter to proceed to arbitration. It appears to the Claimants that the
authority of CRS to proceed has been decided in favor of RSL Funding, LL C's and RSL
Special-IV, Limited Partnership's favor.
saf
STEWART A. FELDMAN

sfeldman@RSLFunding.com
WWW. RSLFunding.com

RSL FUNDING, LLC I 1980 POST OAK BLVD, STE 1975
TEL 888.906.5849 I FAX 877.850.8700

I

HOUSTON, TEXAS 77056

Website I Map I Twitter I Facebook

LUMP SUM

1

EXHIBIT 8

Earl Nesbitt

Scott Link <scottrlink@gmail.com>
Friday, December 21, 2018 10:53 AM
Stewart A Feldman
Dion Ramos(dionramos@dionramos.com); Earl Nesbitt; John Gorman; Andy Paredes;
Joseph Greenberg
Re: Update on Newsome Arbitration

From:

Sent:

To:

Cc:
Subject:

Dear All, I am ready to arbitrate this matter. Please provide me with dates in January 2019 you can proceed with the
hearing. thanks,Scott
On Fri, Dec 21, 2018 at 10:43 AM Stewart A. Feldman <sfeldman@feldlaw.com> wrote:

I apologize. Ifailed to copy counsel for RSL Funding, LLC and RSL Special-I�� Limited
Partnership.

STEWART A. FELDMAN
sfeldma n@RSLFunding.com
WWW. RSLFunding.com

RSL
FUN

fiN

RSL FUNDING, LLC I 1980 POST OAK BLVD, STE 1975
TEL 888.906.5849 FAX 877.850.8700
I

I

HOUSTON, TEXAS 77056

Website I Map I Twitter I Facebook
1

EXHIBIT 9

Earl Nesbitt
From:
Sent:
To:

Cc:
Subject:
Attachments:

Andy Paredes <aparedes@rslfundingllc.com>
Friday, December 21, 2018 2:58 PM
Earl Nesbitt
John Gorman
FW: Update on Newsome Arbitration
Scheduling.Order.01.docx; newsome opinion.pdf

Earl,
By now you are probably aware that the Texas Supreme Court agreed with RSL's position and the court will be ordering
the trial court to compel arbitration (see attached ruling). Below is an email from the arbitrator where he has been
made aware of these developments. As you can see, the arbitrator would like to get this proceeding moving forward.
How do you envision proceeding? My initial thought is to see if we can agree on a scheduling order. Please see a generic
one that I have attached. Look it over and let me know what you think.
L. Andy Paredes
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975, Houston, Texas 77056
(877) 850-5600; Fax: (877) 850-8700
CONFIDENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transmittal, the information
contained in this message is privileged and confidential information intended for the use of the individual or entity
named above. If the reader of this message is not the intended recipient, or the employee or agent responsible to
deliver it to the intended recipient, you are hereby notified that any dissemination, distribution, or copying of this
communication is strictly prohibited. If you have received this communication in error, please immediately notify the
sender by telephone and return the original message to RSL Funding, LLC at Two Post Oak Central, 1980 Post Oak Blvd.,
Suite 1975, Houston, TX 77056-3877; (phone) 877-850-5600 or 877-850-8700 (fax) at our expense. Thank you.
From: Scott Link <scottrlink@gmail.com>
Sent: Friday, December 21, 2018 10:53 AM
To: Stewart A. Feldman <sfeldman@feldlaw.com>
Cc: Dion Ramos(dionramos@dionramos.com) <dionramos@dionramos.com>; Earl Nesbitt (enesbitt@nvmlaw.com)
<enesbitt@nvmlaw.com>; John Gorman <jgorman@feldlaw.com>; Andy Paredes <aparedes@rslfundingllc.com>; Joseph
Greenberg <JGreenberg@feldlaw.com>
Subject: Re: Update on Newsome Arbitration

Dear All, I am ready to arbitrate this matter . Please provide me with dates in January 2019 you can proceed with the
hearing. thanks,Scott
On Fri, Dec 21, 2018 at 10:43 AM Stewart A. Feldman <sfeldman@feldlaw.com> wrote:

I apologize. /failed to copy counsel for RSL Funding, LLC and RSL Special-IV, Limited
Partnership.

1

EXHIBIT 10

Earl Nesbitt
From:

Sent:
To:

Cc:
Subject:

Andy Paredes <aparedes@rslfundingllc.com>
Friday, December 21, 2018 3:33 PM
Earl Nesbitt
John Gorman
Re: Update on Newsome Arbitration

Earl,
Thank you for your email. We look forward to hearing from you next week. Have a great vacation with your family.
Happy Holiday!

Sent from my iPhone
On Dec 21, 2018, at 3:15 PM, Earl Nesbitt <enesbitt@nvmlaw.com> wrote:
First, I am on vacation with my family and will return to the office next Thursday. Really not focused on
this right now.
Second, congratulations to you and John. You both did a good job on this case. Although l disagree with
the decision, and have not yet studied it thoroughly, I must give due credit to attorneys who deserve it
and both of you do. I hate losing, but you won, we lost, and I must accept it and recognize when lawyers
have done their job well.
Third, I have not yet had the opportunity to discuss the decision with my client. We may seek rehearing.
We may not. We'll make that decision soon. Obviously, having an arbitration before a motion for
rehearing has been decided would be premature and inappropriate. Again, that decision will be made
after consultation with my client next week.
Fourth, I have not been engaged to represent Mr. Newsome in an arbitration with RSL. I was never
engaged to represent Mr. Newsome in an arbitration. My engagement related to the litigation in Dallas
County District Court. I don't know if Mr. Newsome desires to engage me to represent him in the
arbitration, nor do I know whether I want to be involved in an arbitration of this nature. So, I cannot
address any scheduling order or proposed dates for an arbitration or anything like that at this point and
have no authority to agree to ANYTHING relative to an arbitration on behalf of Mr. Newsome.
Finally, I am traveling a great deal on business in January. IF there is an arbitration and IF I represent Mr.
Newsome in said arbitration, I would not be available until early February. I will be in California in court
on February 8 and in court in another case in Texas on the 13 th . Other than that, February looks pretty
good.
I will be back in the office on the 27 th and will clear things up with Mr. Newsome at that time. If you can
wait until then, I would appreciate it.
Regards,

1

Earl S. Nesbitt
First
Ph. 972.371.2411

From: Andy Paredes <aparedes@rslfundingllc.com>
Sent: Friday, December 21, 2018 2:58 PM
To: Earl Nesbitt <enesbitt@nvmlaw.com>
Cc: John Gorman <jgorman@feldlaw.com>
Subject: FW: Update on Newsome Arbitration
Earl,
By now you are probably aware that the Texas Supreme Court agreed with RSL's position and the court
will be ordering the trial court to compel arbitration (see attached ruling). Below is an email from
the arbitrator where he has been made aware of these developments. As you can see, the arbitrator
would like to get this proceeding moving forward. How do you envision proceeding? My initial thought is
to see if we can agree on a scheduling order. Please see a generic one that I have attached. Look it over
and let me know what you think.
L. Andy Paredes
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975, Houston, Texas 77056
(877) 850-5600; Fax: (877) 850-8700
CONFIDENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transmittal,
the information contained in this message is privileged and confidential information intended for the
use of the individual or entity named above. If the reader of this message is not the intended recipient,
or the employee or agent responsible to deliver it to the intended recipient, you are hereby notified that
any dissemination, distribution, or copying of this communication is strictly prohibited. If you have
received this communication in error, please immediately notify the sender by telephone and return the
original message to RSL Funding, LLC at Two Post Oak Central, 1980 Post Oak Blvd., Suite 1975, Houston,
TX 77056-3877; (phone) 877-850-5600 or 877-850-8700 (fax) at our expense. Thank you.
From: Scott Link <scottrlink@gmail.com>
Sent: Friday, December 21, 2018 10:53 AM
To: Stewart A. Feldman <sfeldman@feldlaw.com>
Cc: Dion Ramos(dionramos@dionramos.com) <dionramos@dionramos.com>; Earl Nesbitt
(enesbitt@nvmlaw.com) <enesbitt@nvmlaw.com>; John Gorman <igorman@feldlaw.com>; Andy
Paredes <aparedes@rslfundingllc.com>; Joseph Greenberg <JGreenberg@feldlaw.com>
Subject: Re: Update on Newsome Arbitration
Dear Alt I am ready to arbitrate this matter . Please provide me with dates in January 2019 you can
proceed with the hearing. thanks,Scott
On Fri, Dec 21, 2018 at 10:43 AM Stewart A. Feldman <sfeldman@feldlaw.com> wrote:

2

EXHIBIT 11

Earl Nesbitt
From:
Sent:

To:

Cc:
Subject:

Earl Nesbitt
Wednesday, January 2, 2019 3:18 PM
'Andy Paredes'; scottrlink@gmail.com
John Gorman
RE: Update on Newsome Arbitration

Meeting with him and his wife tomorrow afternoon, in person.
Mr. Newsome will be seeking rehearing in the Texas Supreme Court. I recognize that is a longshot, but it is his legal right
and we will be seeking that relief.
IF I represent Mr. Newsome in the arbitration (possible, but unlikely), we will not proceed with any arbitration until we
have exhausted ALL of our appellate options and the mandate issues from the Texas Supreme Court, as is appropriate
under the law.
IF I agree to represent Mr. Newsome in an arbitration, I have no problem with having a conference call with RSL's
counsel and/or with RSL's counsel and Judge Link, the arbitrator selected by RSL, to discuss the logistics of an arbitration
if and when it occurs and goes forward. In fact, I think that would make sense at the appropriate time.
Andy, if what I have written here does not make sense, please feel free to give me a call.
I am in the office for 3 more hours or so today, preparing for court tomorrow, which is why I cannot meet with the
Newsomes until tomorrow afternoon.
Thanks.

Regards,
Earl S. Nesbitt
Ph. 972.371.2411

From: Andy Paredes <aparedes@rslfundingllc.com>
Sent: Wednesday, January 2, 2019 3:10 PM
To: Earl Nesbitt <enesbitt@nvmlaw.com>; scottrlink@gmail.com
Cc: John Gorman <jgorman@feldlaw.com>
Subject: RE: Update on Newsome Arbitration

Earl,
I am following up from the email you sent below. I am wondering if you have spoken with Mr. Newsome about the Texas
Supreme Court's opinion. Will you be representing Mr. Newsome in the arbitration or will he be pro se? Please advise
because Claimants want to proceed with the arbitration now that the Supreme Court has compelled arbitration.
L. Andy Paredes
1

Two Post Oak Central
1980 Post Oak Blvd., Suite 1975, Houston, Texas 77056
(877) 850-5600; Fax: {877) 850-8700
CONFIDENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transmittal, the information
contained in this message is privileged and confidentia I information intended for the use of the individua I or entity
named above. If the reader of this message is not the intended recipient, or the employee or agent responsible to
deliver it to the intended recipient, you are hereby notified that any dissemination, distribution, or copying of this
communication is strictly prohibited. If you have received this communication in error, please immediately notify the
sender by telephone and return the original message to RSL Funding, LLC at Two Post Oak Central, 1980 Post Oak Blvd.,
Suite 1975, Houston, TX 77056-3877; (phone) 877-850-5600 or 877-850-8700 {fax) at our expense. Thank you.
From: Earl Nesbitt <enesbitt@nvmlaw.com>
Sent: Friday, December 21, 2018 3:18 PM
To: scottrlink@gmail.com
Cc: Andy Paredes <aparedes@rslfundingllc.com>; John Gorman <jgorman@feldlaw.com>
Subject: FW: Update on Newsome Arbitration
Judge Link:
I did respond to Mr. Paredes' e-mail just now. My response is below.
As soon as I can speak with Mr. Newsome next week, I will be back in touch with you and counsel for RSL.
Regards,
Earl S. Nesbitt
Ph. 972.371.2411

From: Earl Nesbitt
Sent: Friday, December 21, 2018 3:15 PM
To: 'Andy Paredes' <aparedes@rslfundingllc.com>
Cc: John Gorman <jgorman@feldlaw.com>
Subject: RE: Update on Newsome Arbitration
First, I am on vacation with my family and will return to the office next Thursday. Really not focused on this right now.
Second, congratulations to you and John. You both did a good job on this case. Although I disagree with the decision,
and have not yet studied it thoroughly, I must give due credit to attorneys who deserve it and both of you do. I hate
losing, but you won, we lost, and I must accept it and recognize when lawyers have done their job well.
Third, I have not yet had the opportunity to discuss the decision with my client. We may seek rehearing. We may
not. We'll make that decision soon. Obviously, having an arbitration before a motion for rehearing has been decided
would be premature and inappropriate. Again, that decision will be made after consultation with my client next week.
Fourth, I have not been engaged to represent Mr. Newsome in an arbitration with RSL. I was never engaged to
represent Mr. Newsome in an arbitration. My engagement related to the litigation in Dallas County District Court.
don't know if Mr. Newsome desires to engage me to represent him in the arbitration, nor do I know whether I want to
2

EXHIBIT 12

Earl Nesbitt
From:

Sent:

To:

Cc:
Subject:
Attachments:

Andy Paredes <aparedes@rslfundingllc.com>
Friday, March 29, 2019 11 :55 AM
Scott Link; Earl Nesbitt
John Gorman
RE: FW: Update on Newsome Arbitration
newsome opinion.pdf

Judge Link,
As you may recall, you were appointed to be an arbitrator by Conflict Resolutions Solutions, PLLC ("CRS")
when RSL Funding, LLC ("RSL") submitted a demand for arbitration with CRS back in 2014. The arbitration was
put on hold when Mr. Newsome got a Dallas court to enjoin the arbitration. That court order has made its way
through the appellate courts and in December the Texas Supreme Court (in a unanimous decision) issued an
opinion favoring RSL's position regarding arbitration (see attached). Today the Texas Supreme Court denied
Mr. Newsome's Motion to Reconsider. Accordingly, RSL asks that we move forward with the arbitration that
has been put on hold since 2014.
L. Andy Paredes
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975, Houston, Texas 77056
(877) 850-5600; Fax: (877) 850-8700
CONFIDENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transmittal, the information
contained in this message is privileged and confidential information intended for the use of the individual or entity
named above. If the reader of this message is not the intended recipient, or the employee or agent responsible to
deliver it to the intended recipient, you are hereby notified that any dissemination, distribution, or copying of this
communication is strictly prohibited. If you have received this communication in error, please immediately notify the
sender by telephone and return the original message to RSL Funding, LLC at Two Post Oak Central, 1980 Post Oak Blvd.,
Suite 1975, Houston, TX 77056-3877; (phone) 877-850-5600 or 877-850-8700 (fax) at our expense. Thank you.
From: Scott Link <scottrlink@gmail.com>

Sent: Saturday, December 22, 2018 11:11 AM

To: Earl Nesbitt <enesbitt@nvmlaw.com>

Cc: Andy Paredes <aparedes@rslfundingllc.com>; John Gorman <jgorman@feldlaw.com>
Subject: Re: FW: Update on Newsome Arbitration

that's fine,,,no rush. Scott
On Fri, Dec 21, 2018 at 3:18 PM Earl Nesbitt <enesbitt@nvmlaw.com> wrote:
Judge Link:

I did respond to Mr. Paredes' e-mail just now. My response is below.
1

As soon as I can speak with Mr. Newsome next week, I will be back in touch with you and counsel for RSL.

Regards,
Earl S. Nesbitt
Ph. 972.371.2411

From: Earl Nesbitt
Sent: Friday, December 21, 2018 3:15 PM
To: 'Andy Paredes' <aparedes@rslfundingllc.com>
Cc: John Gorman <igorman@feldlaw.com>
Subject: RE: Update on Newsome Arbitration

First, I am on vacation with my family and will return to the office next Thursday. Really not focused on this right now.

Second, congratulations to you and John. You both did a good job on this case. Although I disagree with the decision,
and have not yet stud led it thoroughly, I must give due credit to attorneys who deserve it and both of you do. I hate
losing, but you won, we lost, and I must accept it and recognize when lawyers have done their job well.

Third, I have not yet had the opportunity to discuss the decision with my client. We may seek rehearing. We may
not. We'll make that decision soon. Obviously, having an arbitration before a motion for rehearing has been decided
would be premature and inappropriate. Again, that decision will be made after consultation with my client next week.

Fourth, I have not been engaged to represent Mr. Newsome in an arbitration with RSL. I was never engaged to
represent Mr. Newsome in an arbitration. My engagement related to the litigation in Dallas County District Court.
don't know if Mr. Newsome desires to engage me to represent him in the arbitration, nor do I know whether I want to
be involved in an arbitration of this nature. So, I cannot address any scheduling order or proposed dates for an
arbitration or anything like that at this point and have no authority to agree to ANYTHING relative to an arbitration on
behalf of Mr. Newsome.

Finally, I am traveling a great deal on business in January. IF there is an arbitration and IF I represent Mr. Newsome in
said arbitration, I would not be available until early February. l will be in California in court on February 8 and in court
in another case in Texas on the 13 th _ Other than that, February looks pretty good.

2

EXHIBIT 13

Earl Nesbitt
From:

Sent:

To:

Cc:
Subject:

Scott Link <scottrlink@gmail.com>
Friday, March 29, 2019 12:19 PM
Andy Paredes
Earl Nesbitt; John Gorman
Re: FW: Update on Newsome Arbitration

Dear all, I am ready to start the arbitration process. Please call Lorene at my office to schedule a conference call. During
the call we will agree on the final hearing dates and then work backwards from there on discovery deadlines. scott
On Fri, Mar 29, 2019 at 11:54 AM Andy Paredes <aparedes@rslfundingllc.com> wrote:

Judge Link,

As you may recall, you were appointed to be an arbitrator by Conflict Resolutions Solutions, PLLC ("CRS")
when RSL Funding, LLC ("RSL") submitted a demand for arbitration with CRS back in 2014. The arbitration was
put on hold when Mr. Newsome got a Dallas court to enjoin the arbitration. That court order has made its
way through the appellate courts and in December the Texas Supreme Court (in a unanimous decision) issued
an opinion favoring RSL's position regarding arbitration (see attached}. Today the Texas Supreme Court
denied Mr. Newsome's Motion to Reconsider. Accordingly, RSL asks that we move forward with the
arbitration that has been put on hold since 2014.

L. Andy Paredes
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975, Houston, Texas 77056
{877} 850-5600; Fax: {877} 850-8700

CONFIDENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transmittal, the information
contained in this message is privileged and confidential information intended for the use of the individual or entity
named above. If the reader of this message is not the intended recipient, or the employee or agent responsible to
deliver it to the intended recipient, you are hereby notified that any dissemination, distribution, or copying of this
communication is strictly prohibited. If you have received this communication in error, please immediately notify the
sender by telephone and return the original message to RSL Funding, LLC at Two Post Oak Central, 1980 Post Oak Blvd.,
Suite 1975, Houston, TX 77056-3877; (phone} 877-850-5600 or 877-850-8700 (fax) at our expense. Thank you.
1

EXHIBIT 14

Earl Nesbitt

Subject:

Earl Nesbitt
Tuesday, April 2, 2019 5:08 PM
'Andy Paredes'
John Gorman; Scott Link
RE: [EXTERNAL] Re: FW: Update on Newsome Arbitration

Importance:

High

From:
Sent:
To:

Cc:

I have spoken to Mr. Paredes by phone. As I said to him today, and as I have said to him before, I have not been
engaged to represent Mr. Newsome in an arbitration. If and when Mr. Newsome engages me in the arbitration, I will let
you all know.
Moreover, as I explained to Mr. Paredes today, I continue to represent Mr. Newsome in the litigation aspect of this
case. Mr. Newsome has not exhausted his appellate remedies in the litigation aspect of this case. Newsome will be
appealing this case to the United States Supreme Court and I will be representing him in filing a petition for writ of
certiorari in that Court in due course, in accordance with the law.
I'm not an idiot. I understand that the likelihood of the US Supreme Court taking this case is slim, but I also know that
the United States Supreme Court does not review any case UNLESS an aggrieved litigant actually asks the Court to do
so. It is Mr. Newsome's right to petition the Supreme Court and he wants to do so and I have agreed to continue to
represent him on appeal in the Supreme Court. If the Supreme Court refuses to take the case, then Mr. Newsome will
address the arbitration aspect of this case at the appropriate time, which will be after the Supreme Court acts on the
petition.
RSL Funding seems to be in a rush to get this case into arbitration. That is a concern. It is also premature.
Respectfully, Judge Link, until Mr. Newsome exhausts his appellate remedies, it would be inappropriate for an
arbitration to commence. There is no point in having a conference call to address arbitration or discuss potential dates
for an arbitration until the Supreme Court takes action relative to Newsome's petition for writ of certiorari. It would
also be improper for any party to move down the arbitration path while the appeal/writ is pending with the Supreme
Court.
I would imagine that we will know by the middle or end of the summer whether the Supreme Court has any interest in
hearing the case. If they do not, and if Mr. Newsome engages me to represent him in the arbitration, then I will be
pleased to address the situation with all of you again at that time.
FYI. I do have a family vacation planned off of the mainland US for August 9-18. I jealously guard my vacations, as should
we all in this business.
Let me know if any of you have any questions or require additional information.

Regards,
1

Earl S. Nesbitt
Ph. 972.371.2411
From: Andy Paredes <aparedes@rslfundingllc.com>
Sent: Tuesday, April 2, 2019 3:24 PM
To: Earl Nesbitt <enesbitt@nvmlaw.com>
Cc: John Gorman <jgorman@feldlaw.com>; Scott Link <scottrlink@gmaiLcom>
Subject: RE: [EXTERNAL] Re: FW: Update on Newsome Arbitration
Earl,
I am following up on the email from Arbitrator Link from below. I have called his office and I got some dates from Lorene
as to when we can have a conference call to get a final hearing date for the arbitration. Arbitrator Link is available on the
afternoon of the 5 th . Please let me know if you are available then for the conference call.
L. Andy Paredes
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975, Houston, Texas 77056
(877) 850-5600; Fax: (877) 850-8700
CONFIDENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transmittal, the information
contained in this message is privileged and confidential information intended for the use of the individual or entity
named above. If the reader of this message is not the intended recipient, or the employee or agent responsible to
deliver it to the intended recipient, you are hereby notified that any dissemination, distribution, or copying of this
communication is strictly prohibited. If you have received this communication in error, please immediately notify the
sender by telephone and return the original message to RSL Funding, LLC at Two Post Oak Central, 1980 Post Oak Blvd.,
Suite 1975, Houston, TX 77056-3877; (phone) 877-850-5600 or 877-850-8700 (fax) at our expense. Thank you.

From: Scott link <scottrlink@gmail.com>
Sent: Friday, March 29, 2019 12:19 PM
To: Andy Paredes <aparedes@rslfundingllc.com>
Cc: Earl Nesbitt <enesbitt@nvmlaw.com>; John Gorman <jgorman@feldlaw.com>
Subject: [EXTERNAL) Re: FW: Update on Newsome Arbitration
Dear all, I am ready to start the arbitration process. Please call Lorene at my office to schedule a conference call. During
the call we will agree on the final hearing dates and then work backwards from there on discovery deadlines. scott
On Fri, Mar 29, 2019 at 11:54 AM Andy Paredes <aparedes@rslfundingllc.com> wrote:

Judge Link,

As you may recall, you were appointed to be an arbitrator by Conflict Resolutions Solutions, PLLC ("CRS")
when RSL Funding, LLC ("RSL") submitted a demand for arbitration with CRS back in 2014. The arbitration was
put on hold when Mr. Newsome got a Dallas court to enjoin the arbitration. That court order has made its
way through the appellate courts and in December the Texas Supreme Court (in a unanimous decision) issued
an opinion favoring RSL's position regarding arbitration (see attached). Today the Texas Supreme Court
2

EXHIBIT 15

Earl Nesbitt
From:

Sent:
To:

Cc:

Subject:
Attachments:

Andy Paredes <aparedes@rslfundingllc.com>
Tuesday, April 2, 2019 5:27 PM
Earl Nesbitt
John Gorman; Scott Link
RE: [EXTERNAL] Re: FW: Update on Newsome Arbitration
16-0998_MAN DATE_FILECOPY.pdf

Judge Link,
I am about to leave the office. Before I do, I wanted to quickly respond to Mr. Nesbitt's email below because I do not
believe there is any authority to stay the arbitration now that the Texas Supreme Court's Mandate has issued (see
attached). Moreover, I am unaware of any appellate rule (federal or state) that says an intent to file a writ of certiorari
with the US Supreme Court stays the Texas Supreme Court's Mandate. Nor do I believe a rule exists where the filing of a
writ of certiorari with the US Supreme Court stays the Texas Supreme Court's Mandate. If such a rule exists, then I
suggest Mr. Nesbitt provide it to us. Barring any such rule, I believe the Texas Supreme Court's opinion and mandate
compelling arbitration should be followed.
I would also like to add that Mr. Nesbitt has previously said things that contradict his email below. Specifically, on
January 2, 2019 he wrote in an email:
Mr. Newsome will be seeking rehearing in the Texas Supreme Court. I recognize that is a longshot, but it is his legal right
and we will be seeking that relief.

lf'!j"ept�i�hlM(:N�wsorrie Jnthe arbitr�tlpfl)f.lC)S�ibl�,bufonJik�M/we wm 11S:1fptoteed · with anyiarbltratfon'untU we

h�V��kfta#sfed A,�t OTO ur appellate optionSanAt.the mandat�fssues from tl1e :rexas Sopreme C<>Ort, asls appropr'iate
unde'r the lavi,

IF I agree to represent Mr. I\Jewsome in an arbitration, I have no problem with having a confet·ence call with RSL's
counsel and/or with RS L's counsel and Judge Link, the arbitrator selected by RSL1 to discuss the logistics of an arbitration
if and when it occurs and goes forward. In fact, I think that would make sense at the appropriate tirne.
Again, I believe these is no justification to put this arbitration off any longer now that the mandate has issued. Even Mr.
Nesbitt's email from January 2 nd suggests the same thing. That is why I suggest that we have the conference call on
Friday afternoon.
L Andy Paredes
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975, Houston, Texas 77056
(877) 850-5600; Fax: (877) 850-8700
CONFIDENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transmittal, the information
contained in this message is privileged and confidential information intended for the use of the individual or entity
named above. If the reader of this message is not the intended recipient, or the employee or agent responsible to
deliver it to the intended recipient, you are hereby notified that any dissemination, distribution, or copying of this
communication is strictly prohibited. If you have received this communication in error, please immediately notify the
1

sender by telephone and return the original message to RSL Funding, LLC at Two Post Oak Central, 1980 Post Oak Blvd.,
Suite 1975, Houston, TX 77056-3877; (phone) 877-850-5600 or 877-850-8700 (fax) at our expense. Thank you.
From: Earl Nesbitt <enesbitt@nvmlaw.com>
Sent: Tuesday, April 02, 2019 5:08 PM
To: Andy Paredes <aparedes@rslfundingllc.com>
Cc: John Gorman <jgorman@feldlaw.com>; Scott Link <scottrlink@gmail.com>
Subject: RE: [EXTERNAL] Re: FW: Update on Newsome Arbitration
Importance: High
I have spoken to Mr. Paredes by phone. As I said to him today, and as I have said to him before, I have not been
engaged to represent Mr. Newsome in an arbitration. If and when Mr. Newsome engages me in the arbitration, I will let
you all know.
Moreover, as I explained to Mr. Paredes today, I continue to represent Mr. Newsome in the litigation aspect of this
case. Mr. Newsome has not exhausted his appellate remedies in the litigation aspect of this case. Newsome will be
appealing this case to the United States Supreme Court and I will be representing him in filing a petition for writ of
certiorari in that Court in due course, in accordance with the law.
I'm not an idiot. I understand that the likelihood of the US Supreme Court taking this case is slim, but I also know that
the United States Supreme Court does not review any case UNLESS an aggrieved litigant actually asks the Court to do
so. It is Mr. Newsome's right to petition the Supreme Court and he wants to do so and I have agreed to continue to
represent him on appeal in the Supreme Court. If the Supreme Court refuses to take the case, then Mr. Newsome will
address the arbitration aspect of this case at the appropriate time, which will be after the Supreme Court acts on the
petition.
RSL Funding seems to be in a rush to get this case into arbitration. That is a concern. It is also premature.
Respectfully, Judge Link, until Mr. Newsome exhausts his appellate remedies, it would be inappropriate for an
arbitration to commence. There is no point in having a conference call to address arbitration or discuss potential dates
for an arbitration until the Supreme Court takes action relative to Newsome1 s petition for writ of certiorari. It would
also be improper for any party to move down the arbitration path while the appeal/writ is pending with the Supreme
Court.
I would imagine that we will know by the middle or end of the summer whether the Supreme Court has any interest in
hearing the case. If they do not, and if Mr. Newsome engages me to represent him in the arbitration, then I will be
pleased to address the situation with all of you again at that time.
FYI. I do have a family vacation planned off of the mainland US for August 9-18. I jealously guard my vacations, as shou Id
we all in this business.
Let me know if any of you have any questions or require additional information.

Regards,

2

EXHIBIT 16

Earl Nesbitt

Subject:

Earl Nesbitt
Tuesday, April 2, 2019 5:51 PM
'Andy Paredes'
John Gorman; Scott Link
RE: [EXTERNAL] Re: FW: Update on Newsome Arbitration

Importance:

High

Tracking:

Recipient

From:
Sent:
To:

Cc:

Delivery

Read

Delivered: 4/2/2019 5:51 PM

Read: 4/3/2019 7:50 AM

'Andy Paredes'
John Gorman
Scott Link
Patrick Sicotte

lF RSL persists in pursuing an improper and premature arbitration, we will take appropriate legal action.
What would be the point in having an arbitration if the United States Supreme Court decides to hear the case? All of the
effort would have been wasted.
While Mr. Paredes and RSL may not care about that, as their goal is to break Mr. Newsome financially, why would Judge
Link want to conduct an arbitration that could become moot? So, if an arbitration goes forward prematurely and the US
Supreme Court takes the case and decides that the trial court and the Dallas Court of Appeals were right in denying the
motion to arbitrate, what happens then? Who is going to reimburse Mr. Newsome for the cost of a premature
arbitration? Who is going to pay Judge Link?
Again, we wilt take appropriate legal action as required if RSL wants to pursue this issue and I'd be pleased to take the
very reasonable position that arbitration must wait until all appellate remedies have been exhausted.
We expect the arbitrator will see through RSL's transparent and improper motives here. They are trying to usurp the
legal process to compel a premature and inappropriate arbitration, when any reasonable person would understand that
the legal process must conclude before an arbitration can move forward.
So, yes, let's have the conference call on Friday. I will participate, with the understanding that I have not appeared in
the case and my appearance in a conference call with a private arbitrator to preserve the jurisdiction of the US Supreme
Court to at least have the opportunity to determine whether it wants to hear this case, but my appearance is not an
appearance for purposes of the arbitration. Please let me know what time and if there is a conference call.
Moreover, the Texas Supreme Court decision may very well determine that it should not hear this case - the issue or
arbitrability is a preliminary matter that must be determined. Judge Link is likely to determine that he cannot hear this
case in arbitration until the issues in the underlying Dallas District Court Case are determined. But that is an argument
for another day.
Mr. Paredes specious allegation that I am somehow taking a different position than I had in the past is not even worth
responding to. He is wrong. My prior statements to Mr. Paredes and in e-mails are entirely consistent with what I have
stated today.

1

Regards,
Earl S. Nesbitt

Ph. 972.371.2411

From: Andy Paredes <aparedes@rslfundingllc.com>
Sent: Tuesday, April 2, 2019 5:27 PM
To: Earl Nesbitt <enesbitt@nvmlaw.com>
Cc: John Gorman <jgorman@feldlaw.com>; Scott Link <scottrlink@gmail.com>
Subject: RE: [EXTERNAL] Re: FW: Update on Newsome Arbitration
Judge Link,
I am about to leave the office. Before I do, I wanted to quickly respond to Mr. Nesbitt's email below because I do not
believe there is any authority to stay the arbitration now that the Texas Supreme Court's Mandate has issued (see
attached). Moreover, I am unaware of any appellate rule (federal or state) that says an intent to file a writ of certiorari
with the US Supreme Court stays the Texas Supreme Court's Mandate. Nor do I believe a rule exists where the filing of a
writ of certiorari with the US Supreme Court stays the Texas Supreme Court's Mandate. If such a rule exists, then I
suggest Mr. Nesbitt provide it to us. Barring any such rule, I believe the Texas Supreme Courfs opinion and mandate
compelling arbitration should be followed.
I would also like to add that Mr. Nesbitt has previously said things that contradict his email below. Specifically, on
January 2, 2019 he wrote in an email:
Mr. Newsome will be seeking rehearing in the Texas Supreme Court. I recognize that is a longshot, but it is his legal right
and we will be seeking that relief.
::

!J�t:etJ,Z\Lt{�iTi>lI(,ijppellatij·options aod the11l�t1qete:iS$\l�s,fr9ro. theTex�s Supreme c;:ourt,··as1$appropriate

Ji�w�

IF I agree to represent Mr. Newsome in an arbitration, I have no problem with having a conference call with RSL's
counsel and/or with RSL's counsel and Judge Link, the arbitrator selected by RSL, to discuss the logistics of an arbitration
if and when it occurs and goes forward. In fact, I think that would make sense at the appropriate time.
Again, I believe these is no justification to put this arbitration off any longer now that the mandate has issued. Even Mr.
Nesbitt's email from January 2 nd suggests the same thing. That is why I suggest that we have the conference call on
Friday afternoon.
L. Andy Paredes
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975, Houston, Texas 77056
(877) 850-5600; Fax: (877) 850-8700
CONFIDENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transmittal, the information
contained in this message is privileged and confidential information intended for the use of the individual or entity
named above. If the reader of this message is not the intended recipient, or the employee or agent responsible to
de I iver it to the intended recipient, you are hereby notified that any dissemination, distri bution, or copying of this
communication is strictly prohibited. If you have received this communication in error, please immediately notify the
2

EXHIBIT 17

Earl Nesbitt

Stewart A. Feldman <sfeldman@feldlaw.com>
Thursday, April 4, 2019 4:17 PM
Andy Paredes; Earl Nesbitt
John Gorman; Scott Link; lorene.slinklaw@gmail.com; rickeynewsome@att.net
RE: RSL Funding, LLC vs. Rickey Newsome; Arbitrator Scott Link

From:

Sent:
To:

Cc:
Subject:

I have personally spoken with Mr Rickey Newsome and apprised him of the hearing
tomorrow at 3:30 pm. He said that he was going to contact Earl Nesbitt to see ifEarl is still
representing him. I understand from Earl that he is not representing Mr Newsome in the
arbitration.
With this, I think everyone has been notified and that this long delayed matter can move
towards a final resolution.
Thank you.
saf

STEWART A. FELDMAN

sfeldman@RSLFunding.com
WWW. RSLFunding.com

RSL

FUNDING

RSL FUNDING, LLC I 1980 POST OAK BLVD, STE 1975
TEL 888.906.5849 I FAX 877.850.8700

I

HOUSTON, TEXAS 77056

LUMP SUM

CONFIDENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transmittal, the
information contained in this message is privileged and confidential information intended for the use of the
1

EXHIBIT 18
AFFIDAVIT OF RICKEY NEWSOME
STATE OF TEXAS

§

COUNTY OF DALLAS
BEFORE ME, the undersigned authority, personally appeared Rickey Newsome, an
individual personally known to me, who after being by me duly sworn, testified upon his oath as
follows:
1.

·-My. name is Rickey Newsome. I am over 21 years old, of sound mind, capable

of making this Affidavit, and fully competent and authorized to testify to the facts stated herein.
Except where indicated, I have personal knowledge of the facts stated in this Affidavit and all
such facts are true and correct.
2.

On Thursday, April 4, 2019 I received a telephone call from Stewart Feldman. I

was surprised to hear from Mr. Feldman, since I am involved in a dispute with RSL Funding,
LLC and I am represented by Attorney Earl Nesbitt in connection with the dispute with RSL. I
understand that Mr. Feldman is the owner or president of RSL Funding. During our telephone
call, Mr. Feldman informed me that Earl Nesbitt was no longer representing me, that an
arbitration was taking place on April 5, 2019, and that he (Mr. Feldman) had some money for
me.
3. I was very surprised to hear from Mr. Feldman that Earl Nesbitt was no longer
representing me. I spoke to Mr. Nesbitt later on Thursday, April 4, 2019, and confirmed that he
was still representing me in the dispute involving RSL Funding, LLC.

AFFIDAVIT OF RICKEY NEWSOME - Page 1

FURTHER AFFIANT SAITH NAUGHT.

SUBSCRIBED and SWORN to before me the undersigned authority this
of April 2019 ............�...,......,�I

AFFIDAVIT OF RICKEY NEWSOME - Page 2

-lie--

day

EXHIBIT 19

Earl Nesbitt

Subject:

Earl Nesbitt
Thursday, April 4, 2019 5:02 PM
'Stewart A Feldman'; Andy Paredes
John Gorman; Scott Link; lorene.slinklaw@gmail.com
RE: RSL Funding, LLC vs. Rickey Newsome; Arbitrator Scott Link

Importance:

High

From:
Sent:
To:

Cc:

Mr. Feldman's contentions that he understands from Earl that he is not representing Mr. Newsome in the arbitration is
incorrect. To be dear, I have not been retained to represent Mr. Newsome in the arbitration. I may or may not
represent Mr. Newsome in an arbitration if and when an arbitration properly goes forward. That decision has not been
made by me or Mr. Newsome, as it is premature for any arbitration to move forward as the litigation case continues to
make its way through the courts.
I have just spoken by telephone to my client, Mr. Newsome, and he has confirmed that Mr. Feldman contacted him
directly by telephone. He was quite surprised and shocked to hear from Mr. Feldman that Earl Nesbitt no longer
represented him. Mr. Newsome was also surprised to hear from Mr. Feldman that the arbitration was happening
tomorrow and that Mr. Feldman had some money for Mr. Newsome. (At least two of those things are absolutely untrue.
I don't know if Mr. Feldman has money for Mr. Newsome or not.)
Mr. Newsome is my client in the ongoing litigation case and neither Mr. Feldman, nor Mr. Paredes, nor anyone
representing Mr. Feldman should be contacting my client directly for any reason. And no one should be providing Mr.
Newsome inaccurate information behind my back. The litigation case is continuing, as we will be appealing the case to
the United States Supreme Court.
I will say this as plainly as I can - again. I represent Mr. Newsome. He is my client in ongoing litigation with RSL. As
such, any communications with Mr. Newsome must go through this office and me.
Mr. Feldman, please do not contact my client anymore. That was improper.
I have directed Mr. Newsome that if this happens again to let me know immediately.
I will be participating in the conference call tomorrow on behalf of Mr. Newsome, for the sole purpose, as his litigation
counsel in the continuing court proceedings, to ensure that a premature, improper arbitration does not move forward at
this time and to protect Mr. Newsome's interests. RSL and Mr. Newsome knew that I would be participating in the
conference call tomorrow, to protect Mr. Newsome's interest, yet still Mr. Feldman improperly contacted my client
directly by phone. It is clear to me that he did this for the purpose of harassing, scaring, and upsetting Mr. Newsome by
providing him inaccurate information.
Below is the excerpt from my e-mail dated 4/2/2019, around 5:50 p.m. Obviously, no one who read this could be
suffering from a misunderstanding that I would not be on the conference call tomorrow.
So, yes, let's have the conference call on Friday. I will participate, with the understanding that I have not
appeared in the case and my appearance in a conference call with a private arbitrator to preserve the
jurisdiction of the US Supreme Court to at least have the opportunity to determine whether it wants to
hear this case, but my appearance is not an appearance for purposes of the arbitration. Please let me
know what time and if there is a conference call.
1

I have today, after Mr. Paredes confirmed the time and conference number, advised Mr. Newsome of this call and asked
him if he would like to participate in the call. He declined and feels comfortable with my role in representing him as his
litigation counsel in the ongoing court proceedings to protect his interests during the conference call tomorrow.
Additionally, Mr. Newsome does not regularly check the old e-mail that Mr. Feldman used in his improper
communication. (The att.net e-mail.) I have blind copied Mr. Newsome on this e-mail, to another e-mail address he has
provided to me, so that he is kept in the loop.
RSL and Mr. Feldman should not e-mail my client or call him or otherwise communicate with him, except through me, as
long as I am his attorney in the ongoing litigation.

Regards,
Earl S. Nesbitt
Ph. 972.371.2411

From: Stewart A. Feldman <sfeldman@feldlaw.com>
Sent: Thursday, April 4, 2019 4:17 PM
To: Andy Paredes <aparedes@rslfundingllc.com>; Earl Nesbitt <enesbitt@nvmlaw.com>
Cc: John Gorman <jgorman@feldlaw.com>; Scott Link <scottrlink@gmail.com>; lorene.slinklaw@gmail.com;
rickeynewsome@att.net
Subject: RE: RSL Funding, LLC vs. Rickey Newsome; Arbitrator Scott Link

I have personally spoken with Mr Rickey Newsome and apprised him of the hearing
tomorrow at 3:30 pm He said that he was going to contact Earl Nesbitt to see ifEarl is still
representing him. I understand from Earl that he is not representing Mr Newsome in the
arbitration.
With this, I think everyone has been notified and that this long delayed matter can move
towards a final resolution.
Thank you.
saf

2

EXHIBIT 20

Earl Nesbitt
From:

Sent:
To:
Cc:
Subject:

Scott Link <scottrlink@gmail.com>
Friday, April 5, 2019 3:30 PM
Earl Nesbitt
Stewart A. Feldman; Andy Paredes; John Gorman; lorene.slinklaw@gmail.com
Re: RSL Funding, LLC vs. Rickey Newsome; Arbitrator Scott Link

Dear All, let's be perfectly clear on the call today. I am setting a hearing date for the arbitration based on the Texas
Supreme Court Ruling. If a party chooses to file an appeal, then the hearing date is abated until that court has ruled. It is
offensive that a party or attorney would imply that there is some surreptitious scheme to conduct a secret
arbitration. Scott
On Thu, Apr 4, 2019 at 5:02 PM Earl Nesbitt <enesbitt@nvmlaw.com> wrote:
Mr. Feldman's contentions that he understands from Earl that he is not representing Mr. Newsome in the arbitration is
incorrect. To be clear, I have not been retained to represent Mr. Newsome in the arbitration. I may or may not
represent Mr. Newsome in an arbitration if and when an arbitration properly goes forward. That decision has not been
made by me or Mr. Newsome, as it is premature for any arbitration to move forward as the litigation case continues to
make its way through the courts.

I have just spoken by telephone to my client, Mr. Newsome, and he has confirmed that Mr. Feldman contacted him
directly by telephone. He was quite surprised and shocked to hear from Mr. Feldman that Earl Nesbitt no longer
represented him. Mr. Newsome was also surprised to hear from Mr. Feldman that the arbitration was happening
tomorrow and that Mr. Feldman had some money for Mr. Newsome. (At least two of those things are absolutely
untrue. I don't know if Mr. Feldman has money for Mr. Newsome or not.)

Mr. Newsome is my client in the ongoing litigation case and neither Mr. Feldman, nor Mr. Paredes, nor anyone
representing Mr. Feldman should be contacting my client directly for any reason. And no one should be providing Mr.
Newsome inaccurate information behind my back. The litigation case is continuing, as we will be appealing the case to
the United States Supreme Court.

I will say this as plainly as I can - again. I represent Mr. Newsome. He is my client in ongoing litigation with RSL. As
such, any communications with Mr. Newsome must go through this office and me.

Mr. Feldman, please do not contact my client anymore. That was improper.

I have directed Mr. Newsome that if this happens again to let me know immediately.

1

l will be participating in the conference call tomorrow on behalf of Mr. Newsome, for the sole purpose, as his litigation
counsel in the continuing court proceedings, to ensure that a premature, improper arbitration does not move forward
at this time and to protect Mr. Newsome's interests. RSL and Mr. Newsome knew that I would be participating in the
conference call tomorrow, to protect Mr. Newsome's interest, yet still Mr. Feldman improperly contacted my client
directly by phone. It is clear to me that he did this for the purpose of harassing, scaring, and upsetting Mr. Newsome
by providing him inaccurate information.

Below is the excerpt from my e-mail dated 4/2/2019, around 5:50 p.m. Obviously, no one who read this could be
suffering from a misunderstanding that I would not be on the conference call tomorrow.

So, yes, let's have the conference call on Friday. I will participate, with the understanding that I have
not appeared in the case and my appearance in a conference call with a private arbitrator to preserve
the jurisdiction of the US Supreme Court to at least have the opportunity to determine whether it
wants to hear this case, but my appearance is not an appearance for purposes of the
arbitration. Please let me know what time and if there is a conference call.

I have today, after Mr. Paredes confirmed the time and conference number, advised Mr. Newsome of this call and
asked him if he would like to participate in the call. He declined and feels comfortable with my role in representing him
as his litigation counsel in the ongoing court proceedings to protect his interests during the conference call tomorrow.

Additionally, Mr. Newsome does not regularly check the old e-mail that Mr. Feldman used in his improper
communication. (The att.net e-mail.) I have blind copied Mr. Newsome on this e-mail, to another e-mail address he has
provided to me, so that he is kept in the loop.

RSL and Mr. Feldman should not e-mail my client or calf him or otherwise communicate with him, except through me,
as long as Jam his attorney in the ongoing litigation.

Regards,
Earl S. Nesbitt
Ph. 972.371.2411

2

EXHIBIT 21
From:
To:
Subject:
Date:

No-Reply@eFileTexas.gov
Earl Nesbitt
Notification of Service for Case: DC-14-14580, RICKEY NEWSOME vs. RSL FUNDING LLC for filing Proposed
Order, Envelope Number: 33785788
Wednesday, May 22, 2019 3:08:17 PM

Notification of
Service
Case Number: DC-14-14580
Case Style: RICKEY NEWSOME vs.
RSL FUNDING LLC
Envelope Number: 33785788
This is a notification of service for the filing listed. Please click the link below to
retrieve the submitted document.
Filing Details
Case Number

DC-14-14580

Case Style

RICKEY NEWSOME vs. RSL FUNDING LLC

Date/Time Submitted

5/22/2019 3:07 PM CST

Filing Type

Proposed Order

Filing Description

Proposed Order Referring Case to Arbitration

Filed By

Noe Guzman
RICKEY NEWSOME:
Earl Nesbitt (enesbitt@nvmlaw.com)

Service Contacts

Other Service Contacts not associated with a party on the
case:
E Gorman (jgorman@feldlaw.com)
L. Paredes (aparedes@rslfundingllc.com)
Earl Nesbitt (enesbitt@nvmlaw.com)
Stewart Feldman (sfeldman@feldlaw.com)
Document Details

Served Document

Download Document
This link is active for 30 days.

EXHIBIT 22

Earl Nesbitt
From:

Sent:
To:
Cc:

Subject:
Attachments:

Andy Paredes <aparedes@rslfundingllc.com>
Friday, May 24, 2019 12:15 PM
Earl Nesbitt; John Gorman; scottrlink@gmail.com
Stewart A. Feldman; lorene.slinklaw@gmail.com
RSL Funding, LLC vs. Rickey Newsome: Arbitrator Scott Link
arb-disclosure (scott link).doc; Scheduling.Order.01.docx; executed order mtn compel
arb.pdf

Judge Link,
Pursuant to the Texas Supreme Court's mandate and opinion, yesterday the Dallas County District Court signed an order
compelling arbitration (see attached). Accordingly, you now have jurisdiction to proceed with the arbitration between
RSL Funding and Rickey Newsome as all barriers to the arbitration have been removed. I suggest scheduling a
conference call early next week (during the afternoon) where we can discuss the entry of a scheduling order. Please
keep in mind, when we discuss setting the scheduling order, that this matter has been pending since 2014 (because it
was abated by the Dallas court due to Mr. Newsome's actions) and involves arbitration agreements which calls for a
four-month arbitration schedule. Moreover, during our call Mr. Nesbitt can also finally tell us if he will be representing
Mr. Newsome in the arbitration. If Mr. Nesbitt doesn't confirm that he is representing Mr. Newsome in the arbitration
(given his reluctance to acknowledge such since the issuance of the opinion), then RSL advises that it will inform Mr.
Newsome of the upcoming scheduling conference so that Mr. Newsome has ample notice of same so he can participate.
In the meantime, Claimants ask the arbitrator to issue the arbitrator's disclosures. For the arbitrator's convenience, I
have attached a Word version of the disclosures that is typically used by the AAA. I am also attaching a Word version of a
blank Scheduling Order to use during our conference call (all we need to do is to fill in the blanks).
Please let me know if you have any questions or comments.
L. Andy Paredes
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975, Houston, Texas 77056
(877) 850-5600; Fax: (877) 850-8700
CONFIDENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transmittal, the information
contained in this message is privileged and confidential information intended for the use of the individual or entity
named above. If the reader of this message is not the intended recipient, or the employee or agent responsible to
deliver it to the intended recipient, you are hereby notified that any dissemination, distribution, or copying of this
communication is strictly prohibited. If you have received this communication in error, please immediately notify the
sender by telephone and return the original message to RSL Funding, LLC at Two Post Oak Central, 1980 Post Oak Blvd.,
Suite 1975, Houston, TX 77056-3877; (phone) 877-850-5600 or 877-850-8700 (fax) at our expense. Thank you.
From: Earl Nesbitt <enesbitt@nvmlaw.com>

Sent: Friday, April 05, 2019 5:48 PM
To: John Gorman <jgorman@fe Idlaw .com>; scottrli nk@gmai I .com
Cc: Andy Paredes <aparedes@rslfundingllc.com>
Subject: (EXTERNAL] RE: Mandate and Judgment
1

CAUSE NO. DC-14-14580-L
IN THE MATTER OF:
A TRANSFER OF STRUCTURED
SETTLEMENT PAYMENT RIGHTS BY
RICKEY NEWSOME

§
§
§
§
§

IN THE DISTRICT COURT OF
DALLAS COUNTY, TEXAS
193 RD JUDICIAL DISTRICT

ORDER REFERRING CASE TO ARBITRATION
In an int�rlocutory appeal brought by RSL Funding, LLC and RSL Special-IV, Limited
Partnership, the Supreme Court of Texas issued its opinion and rendered judgment on December 21,
2018, reversing this Court's order denying arbitration. The Supreme Court ruled that it is remanding the
cause "to the trial court with instructions to grant the motion to compel arbitration." See Opinion at 2, 16.
On March 29, 2019, the Supreme Court issued its mandate stating that the "cause is remanded to the trial
court for further proceedings consistent with this Court's opinion." See Mandate at 1.
IT IS THEREFORE ORDERED, ADJUDGED and DECREED that:
1.

The Joint Motion to Compel Arbitration filed by Respondents RSL Funding, LLC and

RSL Special-IV, Limited Partnership (the "Motion to Compel") on April 4, 2015, Respondent's
Supplement to Joint Motion to Compel Arbitration and Verified Motion to Abate Proceedings
Pending Arbitration (the "Supplemental Motion") filed on May 5, 2015, and Respondents' Joint
Corrected Motion to Compel Arbitration & Verified Motion to Abate Proceedings Pending
Arbitration filed on May 29, 2015 ("Corrected Motion") (collectively, all three will be regarded as
the "Motion to Compel Arbitration") are hereby GRANTED in all respects.
2.

In' accordance with the express terms of the customer Application, the Transfer

Agreement and the Promissory Note, the parties, Rickey Newsome, RSL Funding, LLC and RSL Special­
IV, Limited Partnership, are referred to arbitration before the Honorable Scott Link who was appointed by

Conflict Resolution Solutions, PLLC as the arbitrator. Pursuant to the terms of the parties' arbitration
provisions and the Supreme Court's opinion, Arbitrator Link will decide the gateway issues the parties
have agreed to arbitrate
3.

This Court's June 2, 2015 Temporary Injunction is dissolved in its entirety, thereby

allowing the arbitration to proceed before Arbitrator Link.
4.

This Court's May 28, 2015 Order Granting in Part and Denying in Part Petitioner Rickey

Newsome's Motion for Summary Judgement is hereby vacated because Arbitrator Link must determine if
the issues raised in Petitioner Rickey Newsome's Motion for Summary Judgment are arbitrable disputes
that need to be decided by the arbitrator.
5.

T�e instant action is hereby stayed pending completion of the arbitration.

It is so ordered.
JUDGME�T READ, RENDERED AND SIGNED in Dallas County, Texas, on thi� of

��-=-----,,o.--.

-'

2019.

�-

-=c..-----------'
-�----"' N
JUDGE PRESIDI G

EXHIBIT 23

Earl Nesbitt
From:
Sent:
To:
Cc:
Subject:

Scott Link <scottrlink@gmail.com>
Wednesday, May 29, 2019 4:24 PM
Andy Paredes
Earl Nesbitt; John Gorman; Stewart A. Feldman; lorene.slinklaw@gmail.com
Re: RSL Funding, LLC vs. Rickey Newsome: Arbitrator Scott Link

Dear all, I will give you dates tonight. Thanks Scott
Sent from my iPhone
On May 29, 2019, at 4:00 PM, Andy Paredes <aparedes@rslfundingilc.com> wrote:
Judge Link,
I am following up on the email I sent below. Please advise about a teleconference. For your
convenience, I am attaching the same attachments that I did last Friday.
L. Andy Paredes
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975, Houston, Texas 77056
(877) 850-5600; Fax: (877) 850-8700
CONFIDENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transmittal,
the information contained in this message is privileged and confidential information intended for the
use of the individual or entity named above. If the reader of this message is not the intended recipient,
or the employee or agent responsible to deliver it to the intended recipient, you are hereby notified that
any dissemination, distribution, or copying of this communication is strictly prohibited. If you have
received this communication in error, please immediately notify the sender by telephone and return the
original message to RSL Funding, LLC at Two Post Oak Central, 1980 Post Oak Blvd., Suite 1975, Houston,
TX 77056-3877; (phone) 877-850-5600 or 877-850-8700 (fax) at our expense. Thank you.

From: Andy Paredes
Sent: Friday, May 24, 2019 12:15 PM
To: Earl Nesbitt <enesbitt@nvmlaw.com>; John Gorman <jgorman@feldlaw.com>;
scottrlink@gmail.com
Cc: Stewart A. Feldman <sfe!dman@feldlaw.com>; lorene.slinklaw@gmail.com
Subject: RSL Funding, LLC vs. Rickey Newsome: Arbitrator Scott Link
Judge Link,
Pursuant to the Texas Supreme Court's mandate and opinion, yesterday the Dallas County District Court
signed an order compelling arbitration (see attached}. Accordingly, you now have jurisdiction to proceed
with the arbitration between RSL Funding and Rickey Newsome as all barriers to the arbitration have
been removed. I suggest scheduling a conference call early next week (during the afternoon) where we
can discuss the entry of a scheduling order. Please keep in mind, when we discuss setting the scheduling
order, that this matter has been pending since 2014 (because it was abated by the Dallas court due to
Mr. Newsome's actions) and involves arbitration agreements which calls for a four-month arbitration
1

schedule. Moreover, during our call Mr. Nesbitt can also finally tell us if he will be representing Mr.
Newsome in the arbitration. If Mr. Nesbitt doesn't confirm that he is representing Mr. Newsome in the
arbitration (given his reluctance to acknowledge such since the issuance of the opinion), then RSL
advises that it will inform Mr. Newsome of the upcoming scheduling conference so that Mr. Newsome
has ample notice of same so he can participate.
In the meantime, Claimants ask the arbitrator to issue the arbitrator's disclosures. For the arbitrator's
convenience, I have attached a Word version of the disclosures that is typically used by the AAA. I am
also attaching a Word version of a blank Scheduling Order to use during our conference call (all we need
to do is to fill in the blanks).
Please let me know if you have any questions or comments.
L. Andy Paredes
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975, Houston, Texas 77056
(877) 850-5600; Fax: {877) 850-8700
CONFl DENTIALITY NOTICE: Unless otherwise indicated or obvious from the nature of the transm ittaI,
the information contained in this message is privileged and confidential information intended for the
use of the individua I or entity named above. If the reader of this message is not the intended recipient,
or the employee or agent responsible to deliver it to the intended recipient, you are hereby notified that
any dissemination, distribution, or copying of this communication is strictly prohibited. If you have
received this communication in error, please immediately notify the sender by telephone and return the
original message to RSL Funding, LLC at Two Post Oak Central, 1980 Post Oak Blvd., Suite 1975, Houston,
TX 77056-3877; (phone) 877-850-5600 or 877-850-8700 (fax) at our expense. Thank you.
From: Earl Nesbitt <enesbitt@nvmlaw.com>
Sent: Friday, April 05, 2019 5:48 PM
To: John Gorman <igorman@feldlaw.com>; scottrlink@gmail.com
Cc: Andy Paredes <aparedes@rslfundinglJc.com>
Subject: [EXTERNAL] RE: Mandate and Judgment
That is what I get for trying to multi-task. John is correct. I clicked on the wrong mandate.
But the correct judgment and mandate in this case both say what we represented that they said.
Regards,
Earl S. Nesbitt
Ph. 972.371.2411

From: John Gorman <igorman@feldlaw.com>
Sent: Friday, April 5, 2019 4:47 PM
To: scottrlink@gmail.com
Cc: Earl Nesbitt <enesbitt@nvmlaw.com>; Andy Paredes <aparedes@rslfundingllc.com>
Subject: FW: Mandate and Judgment
2

EXHIBIT 24
Transfer Agreement
{For Transfer of Structured Settlement Payments)
This TRANSFER AGREEMENT {"Transfer Agreement" or sometimes "Agreement") is entered into by and
between RICKEY NEWSOME { ff Assignor")� an individual: and RSL FUNDING, LLC, a Texas limited tiabllity

company ("ASL Funding" or "Assignee") whose address is 1980 Post Oak Boulevard, Suite 1975,
Houston, Texas 77056-3899.
a.

Whereas Assignor is entitled to structured settlement payments (coltectively referred to as the "Periodic
Payments"} as a result of a structured settlement dated on or about
ithe
"Settlement Agreement"}.

b.

\l\lhereas Allstate lnsurence Company {the "Annuity Owner" and .. Structured Settlement Obligor") has the
continuing obligation to make the Periodic Payments to the Assignor under the Settlement Agreement and
pursuant to annuity contract No. 90-606/877/878 (the "Annuity Contract"} .

. c.

Whereas the Periodic Payments are currently being paid by Allstate Ufe Insurance Company (the"Annuity
Issuer·).

d.

Whereas Assignor desires to sell, assign, and transfer to RSL Funding, and ASL Funding desires to purchase
and accept such transfer and assignment from Assignor, the following entirety or portion of the Periodic
Payments {hereinafter the "Assigned Payments"):

Twenty-One (21) monthly payments each in the amount of $550 beginning on
December 13, 2013 through end including August 13, 2015; thJrty-three (33}
monthly payments each in the amount of $150 beginning on September 13, 201 5
through and including May 13, 201 8; and sixty-six (66} monthly payments each
in the amount of $ 1350 beginning on June 13. 2018 through and including
November 13, 2023.
NOW THEREFORE IN CONSIDERATION THEREOF. SUBJECT TO THE OTHER TERMS ANO CONDITIONS STATED
HEREJN, RSL FUNDING AGREES TO PAY TO ASSIGNOR, AND ASSIGNOR AGREES TO ACCEPT AS RJLL ANO
COMPLETE·PAYMENT FROM RSL FUNDING, THE ·ASSIGNMENT PRfCE" (SEE SECTION 2 BELOW}.
Preliminary: A court must approve Assignor's sale, essignment, end transfer to ASL Funding of the Assigned
Payments betore such payments can be transferred and the Assignment Price, set forth in Section 2 below, paid
to Assignor. The Final Order shall state that the court at least has made all findings required by applicabl� law,
and that Annuity Owner and Annuity Issuer are authorized and directed to pay the Assigned Payments to RSL
funding, its successors and/or as.signs. Assignor and RSL Funding agree to proceed in good faith to obtain court
approval of the transfer of the Assigned Payments.
IN CONSIDERATION OF THE COVENANTS. WARRANTIES. AND REPRESENTATIONS SET FORTH HEREIN,
ASSIGNOR AND RSL· FUNDING AGREE AS FOLLOWS:
1. Assignment. Assignor hereby sells, assigns# and transfers to RSL Funding all of Assignor's right, title, and
interest (including an benefits and rights relating thereto) in and to the Assigned Payment(s). RSL Funding hereby
purchases and accepts such assignment and transfer of the Assigned Payment(st.
2. Assignment Price. The Assignment Price is FIFTY-THREE THOUSAND ANO N0/100 ($53,000.00) DOLLARS.
RSL Funding's obligation to pay the Assignment Price is subject to the terms. conditions1 and offsets described
herein and in the Disclosure Statement. In consideration for this assignment, and subject to these terms,
conditions. and offsets. RSL Funding shan pay Assignor the Assignment Price.
3. payment of the Assignment Price. Payment of the Assignment Price shaH be made by RSL funding's (or, as
provided in paragraph 13d.. its assignee's) check payable to Assignor and mailed to the address shown above.
Page 1 of 7

unless otherwise directed in writing by the Assignor. The parties understand that a reasonable time may pass from
the date the Final Order is obtained until the date that AnnuitY Issuer and Annuity Owner acknowledge to RSL
Funding their obligation to comply with the Final Order resulting in the follow!ng :
a . I n the event that the parties hereto and the Annuity Issuer and the Annuity Owner enter into an
agreement or stipulation agreeing to this Transfer, then RSL Funding shall promptly pay 1 00% of the
Assignment Price to Assignor following its receipt of a certified copy of the Finaf Order; or
b. Otherwise. following RSL Funding's receipt of the certified copy of the Final Order follow;ng the Annuity
lssuer's confirmation that the Assigned Payments have not otherwise been assigned, transferred, sold or
hypothecated, ASL Funding shall pay 75% of the Assignment Price to Assignor, with the 25% balance
payabfe promptly upon ASL Funding's receipt of written notice from Annuity Issuer and Annuity Owner
acknowledging their obligations under the Final Order.
Payment of the Assignment Price is subject to all the terms and conditions set forth herein and in the Disclosure
Statement. in particular, Sections 5, 6, 7 and 8 of this Agreement may affect RSL Funding's obligation to pay the
Assignment Price to Assignor where, for example, there are tax liens, judgments or other encumbrances on the
Periodic Payments.
4. Servicing Arrangement. Assignor agrees that to the extent that payments d ue from the Annuity Issuer or its
affiliates must be split among various payees (including the Payee and Its assigns) RSL Funding shall receive the
. _ - . fuli payment and in turn will undertake to pay to Payee or Payee's assigns any resJduaf amount due such person
as such comes due.
5. Assignor agrees to instruct the Structured Settlement Obligor and Annuity Issuer to deliver all Assigned
Payments to RSL funding received after the date this Transfer Agreement is executed by all parties and agrees to
forward all Assigned Payments to RSL Funding Assignor receives after the execution of this Transfer Agreement.
RSL Funding shall deposit the forwarded payments into an escrow account end hold such forwarded payments until
the court considers the matter (hereinafter ·hefd payments "') . After the hearing. RSL Funding shaff account for the
hek:I payments. subject to any lawful offsets and credits, end forward the amount of the he1d payments due and
owing to Assignor in the usual course of busfness. Payment of the Assignment Price is subject to all the terms and
conditions set forth herein � in the Disclosure Statement�
6. Representations and Warranties . Assignor hereby makes the following unconditional representations and
warranties, each of which is agreed to be material to this Agreement and which form the basis of RSL Funding's
obligations under this Agreement and for whose breach Assignor agrees to unconditionally indemnify RSL Funding:
a. Assignor's name i s Rickey Newsome with a social security number of -------· Assignor has

never been known by or used any other name or social security number.

b. Assignor is the sole hokier· of the entire right, title, and interest in and to the Assigned Payments end
under the ebove referenced Servicing Arrangement, the Assignor may be the sole holder of the remainder
of the difference between the Assigned Payments and Periodic Payments- with full power and authority to
enter into and perform en of Assignor's ob1l9atlons under this Agreement, without the need to obtain the
consent ot any third party to do so. It is Assignor's sole responsibility promptly to obtain any consents1
waivers, or releases needed.
c. Assignor is entitled to the Assigned Payments, free end clear of any right, interest, nen, charge.
encumbrance, or claim of eny other person. Assignor has not previously conveyed, sold, assigned.
pledged, or otherwise encumbered any portion of the Assigned Payments, to any person or entity. No
other person, with or without Assignor's knowledge or consent, has previously conveyed , sold, assigned,
pledged, or otherwise encumbered any portion of the Assigned Payments, to any person or entity.
Assignee and its affiliates are authorized by Assignor. and Assignor has obtained and/ot provided afl

®

•Assignor affirms that Assignor is not marriedEf /A.tsignur's initi,Jls. ;f i,pplicable/
• OR•
Assignor is married anq �slgnors Spousal C ns t Form is attached and lncorp<>rated into this
TraMter Agreement .:t;Jl_. lA�-signo,·s initil)/s, · af)pticahle/
Page 2 of 7
Rickey Newsome A·TX 6841

}

@

'\. .
JU_
.L,,
inruats

·

required authorizations to obtain and file any document as Assignee deems appropriate to effect the sale
of the Assigned Payments.
d. No !awsuhs or claims are pending or threatened against Assignor or Assignor's property and Assignor
does not know of any basis for any such lawsuit or cfaim.
e. Assignor hes no unpaid obligation to any former spouse for support. maintenance or similar obligations.
Assignor has no unpaid child support or similar payment obligation.
f. Assignor has paid a ll federal, state and local taxes due and owing through and including the date of
Assignor's signing of this Agreement {including current estimated obligations}. Assignor has no outstanding
or unsatisfied judgments of federal, state, or focaf tax or other Hens against Assignor or the Assigned
Payments. Assignor has previously filed alf required income and other tax returns. Assignor has not filed
for bankruptcy within the last five (5J years. Assignor agrees to provide all documentation in support
thereof to RSl Funding to facilitate and expedite the court approval process.
g . Assignor is not in arrears or default on any student loa n . Assignor has not received Aid to Families with
Dependent Children, food stamp benefits, or low income energy assistance benefits.
h. Assignor has been advised by RSL funding to seek independent professional advice regarding this
_transfer. Assignor has had the opportunity to obtain such independent professional advice and has either
received that independent advice or freely chosen to waive obtaining such. In entering into this Agreement
a nd considering the ongoing consequences thereof, Assignor has not relied in any way on RSL Funding or
any person employed by or associated or affiliated with RSL Funding or its lawyers for advice concerning,
among other things, the legal. tax or financial consequences of the transaction contemplated by this
Agreement.
i. Assignor is an adult of sound mind 1 is not acting under duress, end at the time of signing both this
Agreement a nd the Oiscfosure Statement is not under the influence of alcohol or any other substance or
drug or impaired by any condition that would prevent Assignor from fufly consenting to this Agreement as
evidenced by Assignor's signature belo w . Assignor has inquired of third�parties as to other financial
options available ¥ including solicitation of offers from other structured settlement purchasers, and has
concluded that entering into this Agree ment is in the best interest of the Assignor and Assignor's
dependents so that Assignor shall work exclusively with RSL Funding to the exclusion of an other potential
purchasers to complete the Transfer.
j. Assignor does not need or depend on the Assigned Payments for payment of Assignor's current or future
Jiving expenses (food, housing, clothing, medical care, etc .) and Assignor has other means of providing for
Assignor's living expenses and the living expenses of Assignor's dependents.
k� Assignor acknowledges and stipulates that damages arising from Assignor's breach of the Transfer
Agreement by Assignor are fifteen percent of the Assigned Payments or actual d amages whichever is
greater; however, in the case of a breach of the right of first refusal, the liquidated damages are fifteen
percent of the Periodic Payments transferred by Assignor in breach of the right of first refusal.
I. The representations and wa.rranties are true, correct, and not misleading as of the d ate of A$sfgnor·s
execution of this Agreement and Assignor has not failed to disclose any information to RSL Funding which
a reasonable person might consider to be material or relevant to e purchaser in considering whether to enter
into this Agreement. Assignor shall not take any action (and shall refrain from taking any ectioo) that mlght
cause the representations and warranties to become untrue, incorrect, or misleading. Further, Assignor
shafl immediately notify RSL Funding of any event, fact or circumstance that would render any of the
representations and warranties untrue. incorrect, or misleading . All of Assignor's representations and
warranties made herein regarding the Assigned Payments also apply in full to the Periodic Payments except
for those prior transfers disclosed In writing to RSL Funding prior to Assignor's execution of this Transfer
Agreement. The foregoing representations and warranties are made by Assignor with the full knowledge
and expectation that RSL Funding is placing complete reliance thereon.

Rickey Newsome A-TX §§.4.!

Page 3 of 7

7 . Covenants: Conditions Precedent to RSL Funding's Obligations. Assignor covenants that each of the
representations and warranties made herein continue to be true as and ot the date(s) of payment of the Assignment
Price by RSL Funding . Except as may be expressly waived in writing by ASL Funding. RSL Funding's obligation
to pay aH or any portion of the Assignment Price is subject to:
the representations and warranties made herein
being true when made as and of the date(s) the Assignment Price is paid; and (U) RSL Funding having received the
approval of a court tor the sale and assignment contemplated in this Agreement. Assignor acknowledges that RSL
Funding has no obligation to pay Assignor until Assignee obtains the Final Order. Additionatly, Assignee 's
obligations to pay the Assignment Price hereunder are subject to the receipt and approval by Assignee of all
documentation related to: (it the Periodic Payment fe.g ., the annuity contract, the settlement agreement and the
related court order) : and Un any prior transfer by Assignor of any Periodic Payments.

m

8. Agreed Offsets to Assignment Price.

e. Assignment Price Reduction . The Assignment Price shal1 be reduced by any legal/attorneys' fees set
forth in the Disclosure Statement and by any Assigned Payments received by Assignor.

b. Certain Debts Paid. lt Assignor owes back taxes, past due child support or has garnishments, recorded

judgments or liens or similar encumbrances. RSL funding shall determine which debts, claims, or liabilities

must be paid at closing. RSL Funding may, rn its sole discretion, pay those debts for Assignor's account,
and deduct the amounts ftom the Assignment Price. In order to obtain full right. title and interest in the
Assigned Payments. RSL Funding mav pay any amounts necessary to discharge any liens or other claims
adverse to the Assigned Payments, whether or not such adverse claims wera disclosed by Assignor and
regardfess of the nature of the claim. Upon written notice to Assignor of payment of such an adverse
clai m, the Assignment Price shall be reduced by such payment. In the event that any reduction of or
obligation pffecting the Assigned Payments arises after the Purchase Price is paid to Assignor, Assignor
shall indemnify RSL Funding for any such amounts paid or payable by RSL Funding or which result in a
reduction of the Assigned Payments received by RSL Funding .

c . Other Possible Deductions from the Assignment Price. If some of the Assigned Payments are paid or
payable to Assignor or third-parties (and/or wm not ultimately be pai<;I to RSL Funding or its successors or
assigns) before or after the Assignment Price is paid, the Assignment Price shall be reduced "dollar for
dollar" {that is, without time value adjustment) for the payments to Assignor and/or third·parties and/or
which RSL FundJng wiJI not be receiving. As well. if any advances are made to Assignor by RSL Funding,
such advances similarly shaH be deducted from the amount due Assignor hereunder also on a "dollar for
dollar" basts plus any accrued interest due thereon .

d. "Holdbacks• Whlle Address Change is Processed. After being notified of the Anal Order, It may take
some time tor tho Annuity Issuer to process the change of address. If the Assigned Payments include
monthly payments that are scheduled to be paid within three months of the issuance of the Final Order,
RSL Funding wiU withhofd a portion of the Assignment Price equal to three monthly payments until such
time as the Annuity Issuer actuaffy begins to redirect payments to RSL Funding pursuant to the Finaf Order.

e. Misrouted Payments. Even after a Rnaf Order. an Assigned Payment may be misrouted or mislabeled
by Annuity Issuer. ln the event that Assigned Payments are instead sent to Assignor Assignor agrees to
hold these payments In trust for RSL Funding end immediately turn over these Assigned Payments to RSL
Funding. Similarly, In the event that Assigned Payments are sent to RSL Funding but made payable to
· Assignor, Assignor hereby grants to RSL Funding an irrevocable limited power of attorney authorizing RSL
funding to cash any such checks and deposit them to RSL Funding's coHection account.
I

9. Security Agreement. To secure the prompt and complete payment# performance and observance of all of the
obligations of Assignor under this Transfer Agreement and regardless of whether such transfer and assignment is
consummated and in furtherance of the right of first refusat set forth in this Agreement, Assignor hereby grants,
assigns, conveys, mortgages, pledges, hypothecstes end transfers to RSL Funding ,. a security interest (lienJ upon
all of Assignor's right, title and interest in� to and under alJ the Periodic Payments fh8reinafter the "CoUateral"), to
secure payment of the Assigned Payments to RSL Funding and Assignor's other obligations hereunder. Additkmatly,
Assignor hereby Irrevocably authorites RSL Funding at eny time and from time to time to file in any flling office

Ricley Newsome A·TX 6841

,

Poge 4 of 7

f

C

�Is W

· - --------·--------

in any jurisdiction any initial financing statements and amendments thereto covering payments due from the
Annuity Issuer to secure RSL Funding's rights hereunder and containing any other information required by Article
9 of the Uniform Commercial Code or its equivalent for the filing office's acceptance of any financing statement
or amendment. This Agreement shall function as a security agreement. RSL funding is authorized to direct
Annuity Issuer and/or Settlement Ooligor to forward any and all of the Assigned Payments directly to RSL Funding
in furtherance of this Agreement.
1 0. Power of Attorney. Assignor hereby grants to ASL Funding an frrevocabJe Power of Attorney with full powers
of substitution to do alf acts and things that Assignor might do regarding the Assigned Payments and any and aJI
rights Assignor has under the Settlement Agreement. including, without limitation, the power to endorse checks.
drafts or other instruments, the power to alter, edit and change payment instructions and/or beneficiary designation
and a ny other act which, in the sole discretion of RSL Funding as Assignor 's Attorney-in-fact, is necessary or
expedient for RSL Funding to obtain all of the benefit of the bargain contemplated by this Agreement. This power
of attorney is coupled with an interest and shalt surv\ve Assignor' s death or disability .
1 1 , Further Assurances. Assignor shall fully cooperate with RSL Funding, including making a ny coun appearances
as reasonably requested by RSL Funding in obtaining the court order and/or acknowledgment referred to above and
in the taking of or performing any and all acts necessary to facilitate the objectives of this Agreement. Assignor
shall execute any additional documents as RSL Funding may reasonably request. Assignor shall immediately
endorse and forward to RSL Funding, as applicebte, any Assigned Payment which may be made out to Assignor
or which Assignor receives.
1 2. In consideration of the Transfer Agreement's execution, Assignor hereby grants and conveys to RSL Funding
a ten ( 1 0) day right of first refusal beginning upon RSL Funding•s receiving actual wrrtten notification of an ofter
to purchase or otherwise acquire any Periodic Payments, as foHows: If Assignor receives an oral or a written offer
to sen. assign, borrow against, pledge or otherwise encumber any Periodic Payments and Assignor desires to enter
into a transaction invoMng the sale, assignment, borrowing against. pledging, or other encumbrance thereof,
Assignor agrees to immediately notify RSL Funding in writing: fa) that Assignor has received an offer; and (b}
describing in detail e ll terms of said offer along with providing all writings evidencing such. Assignor agrees to
direct any other purchaser to directly pay over to RSl Funding fifteen percent ot the amount of Periodic Payments
transferred by Assignor to a person in breach of this paragraph. See also the Disclosure Statement.
1 3. Other Provisions.
a. Choice oi Law: Arbitration; Wawer of Jury Trial. Disputes under this Agreement of any nature whatsoever
including but not limited to those sounding in constitutional, statutory, or common law theories as to the
performance of any obligations, the satisfaction of any rights, and/or the enforceability hereof. including
any claims that the Assignor has breached this Agreement� shal1 be resolved through demand by any
interested party to arbitrate the dispute under the laws of Assignee's domicile to the maximum extent
posslble (includjng the Federal Arbitration Act which shall be controlling) and shall submjt the same to a
neutral arbitration association (including but not limited to ConfJict Resolution Solutions, PLLC of Houston)
or arbitrator for resofutJon pursuant to its single arbitrator, expedited rules. Notwithstanding anything else
to the contrary herein or elsewhere, the arbitrator shall award attorneys· fees and costs against the
breaching, defaulting or repudiating party. If the first arbitra1ion organization or arbitrator which receives
a written demand for arbitration of the dispute from any interested party does not complete the arbitration
to finalitY within four months of the written demand, any interested party then may file a written demand
for arbitration of the dispute with another neutral arbitration association or arbitrator, with the prior
arbltrntion association or arbitrator then being immediately dives'ted of jurisdiction, subject to a decision
being rendered by the replacement arbitration association within four months of the written demand being
tiled with the replacement arbltretion group. The arbitration decision shalf be finat end binding in alf respects
and shall be non-appealsble. Any person may have a court of competent jurisdiction enter into its record
the findings of such arbitrators for ell purposes, including for the enforcement of the award. In any event,
the parties to thls Agreement hereby walve the right to trial by jury in any action or proceeding instituted
with respect to this Agreement. The aforementioned provisions contained in this paragraph $hall be
effective notwithstanding any actions that may take place after the execution of this Agreement, end
regardless of whether such transfer and assignment is consummated. The parties hereto agree that the
issue of arbitrebHity shall likewise be decided by the arbitrator, and not by any other person. That is, the /
Rickey Newsome A-TX 684 1

&{{i)

Page 5 of 7

---- --·-·-·- ..·-

--------

question of whether a dispute itself is subject to arbitration shall be decided solely by the arbittator and
not, for example by any court. Jn so doing the intent of the parties is to divest any and ell courts of
jurisdiction in disputes involving the parties. except for the confirmation of the award and enforcement
thereof.
b. Priority of Periodic Payments. To the extent that, after the date hereof, the Annuity Issuer or the Annuity
Owner is placed in receivership. rehabilitation, liquidation, or is subject to any other proceeding or action
of any kind whatsoever where the Periodic Payments are reduced, delayed or otherwise impaired, Assignor
agrees to and upon entry of an order of transfer sha!1 be deemed to subordinate Assignor's rights to receive
any Periodic Payments not included in the Assigned Payments, so tha t (i) any reduction, delay or
impairment in Periodic Payments is first applied against the Periodic Payments not included in the Assigned
Payments, so es to leave the Assigned Payments whole and unaffected by any such reduction, delay or
impairment; {ii) any Periodic Payments made after a reduction, delay or impairment has occurred are first
applied to the Assigned Payments; and Uli) any insurance fund benefit or other similar payment will be
applied in the following order: First, to the Assigned Payments until the Assigned Payments have been
made whole and current; Second, any remaining balance is then appHed to make whole the holder of the
Assigned Payments as to Assigned Payments which are not yet due and payable, but which may possibly
be delayed, reduced, or impaired; Third, any remaining balance Is then applied to make whole end current
the Periodic Payments which are not included the Assigned Payments; Fourth, a ny remaining balance
is then applied with respect to any unpaid, but not yet due, Periodic Payments.

m

c. Counterparts: Headings; Recitals. This Agreement may be executed Jn multiple counterparts as originals
or as faxes, each of which shall be deemed an original and all of which together when executed by all
parties �elow shall constitute a single instrument. The Agreement's headings ere for reference only and
shall not affect in any way the meaning or interpretation of this Agreement. The recitals herein shall be
construed as Assignor's representations and warranties.
d. Effect: Severabilitv: Amendment; Waiver; Assignment; Other. This Agreement shell be binding upon
end shall inure to the benefit of the parties hereto end their respective successors, heirs, fegal
representatives and permitted assigns. ff any p rovision of this Agreement is found to be invalid or
unenforceable, the validity or enforceability of any other provision of this Agreement shalt not be affected
t hereby. This Agreement may not be emended or modified, or any provision deemed waived , except by
written instrument signed by atl of the parties hereto. and as to RSL Funding, only with the signature of
its Chief Executive Officer. The waiver or modification by a party of performance or breach of any provision
of this Agreement shall not operate or be construed as a waiver of any subsequen1 or other performance
or breach thereof� RSL Funding may assign the right to receive the Assigned Payments to an or any portion
of its right4 title, and interest in and to this Agreement, the Settlement Agreement, the Annuity, and the
Assigned Payments without the consent of any other person. If and when RSL Funding assigns the right
to receive the Assigned Payments to RSL Funding • s assignee, the references herein to the right to receive
the Assigned Payments onfy shall be understood to mean ASL Fundint t s assignee.
e. Notices. AU notices, demands, and other communications required or permitted hereunder shall be
made in writing and shall be effective upon actual or constructive receipt at the address shown above or
otherwise for the parties.
f. No Rule of Construction; Entire Agreement; Independent Representation. The parties hereto have
participated in negotiating and drafting this Agreement, and no rule of construction shell apply to this
Agreement which construes any language # whether ambiguous, unclear # or otherwise, in favor of either
party. This Agreement constitutes the entire agreement and understanding of the parties with respect to
the matters and transactions contemplated hereby end supersedes any and an prior agreements and
understandings with respect thereto. AH prior agreements of the parties, whether written or oral, have
been merged Into end incorporated herein. No statements have been made, or relied upon, by either party
except those set forth In this Agreement. This Agreement shall take effect on the date on wllich it is last
executed by either pany. ASSIGNOR SHALL HAVE THE RIGHT TO CANCEL THIS AGREEMENT WITHIN
THREE 13) BUSINESS DAYS OF ASSIGNOR"S EXECUTION .

Rickey Newsome A·TX 684 1

Page 6 of 7

IN WITNESS WHEREOF, this Agreement is last executed
ASSIGNOR:

Rickey Newsome A-TX�
rt\lfSed 9.41.13

thl1� of�. 20 IJ.

�
RSL FU DING, LC, a Texas limited liability company

Page 7 of 7

._

...

EXHIBIT 25

IN THE ARBITRATION OF
RSL FUNDING, LLC, ET AL., CLAIMANTS
vs. RICKEY NEWSOME, RESPONDENT
SCHEDULING ORDER

This proceeding is being conducted Pursuant to the Commercial Arbitration Rules of the
American Arbitration Association (AAA) as administered by Conflict Resolution Systems, PLLC
which for purposes of the disputes among the parties includes the election for a single
arbitrator, and having adopted the AAA's Expedited Procedures and Optional Rules of the AAA
For Emergency Measures of Protection (regarding injunctive or equitable relief, which requests
for relief shall be exclusively be submitted to the arbitrator). A scheduling conference was held
on July 16 & 17, 2019, before Arbitrator Scott Link. The following is based upon the Arbitrator's
interpretation and application of the applicable rules.
Arbitrator Scott Link has been informed that Rickey Newsome has filed a Petition for Writ of
Certiorari (the "Petition") with the United States Supreme Court, seeking a review of the
decision/judgment of the Texas Supreme Court, relative to the motion to compel arbitration
filed by RSL Funding, LLC at the trial court level. That Petition remains pending with the United
States Supreme Court. Newsome maintains that this arbitration should be abated, pending
resolution of the Petition by the Supreme Court, and if the Petition is granted and the Supreme
Court accepts the case for a review of the decision of the Texas Supreme Court dated
December 21, 2019, that this arbitration should then be abated until the Supreme Court
decides the case. RSL maintains that the arbitration should move forward until and unless
Newsome obtains a stay of the arbitration from the United States Supreme Court pursuant to
28 U.S.C § 2101. The Arbitrator has decided to move forward with the arbitration.
Newsome's participation in this arbitration shall not constitute a waiver by him of any right of
appeal, including Newsome's right to pursue the Petition currently pending with the United
States Supreme Court, and shall not constitute an admission or acknowledgement that this
arbitration is proper or appropriate and Newsome continues to preserve and has not waived
any and all legal rights and arguments, to be made in this or in any court proceeding, that
arbitration of this case is improper, impermissible, and/or prohibited by applicable law.
Moreover, the Arbitrator has not yet determined the Arbitrability Issue described and defined
below and has determined that this arbitration shall be conducted as a bifurcated proceeding,
whereby the Arbitrability Issue shall be decided first, before moving on to the merits of the
parties' claims and defenses.
By Order of the Arbitrator, the following is now in effect:
July 19, 2019

Claimants' final amended demand for arbitration is due.

August 9, 2019

Respondents' objections to arbitration and/or the jurisdiction and/or
authority of the arbitrator to hear the merits of any claims asserted in
this case, including the legal authority of the arbitrator to hear and
decide the case and whether the issues/claims/defenses asserted or
claimed by the parties are or should be arbitrable under the relevant
documents and applicable law (the "Arbitrability Issue"), are due.
Respondents' final answering statement/counterclaims are due.

Scheduling Order RSL Funding, LLC, et al. vs. Rickey Newsome

Page 1

·Respondents' participation in this proceeding both before and after the
Arbitrator has ruled on the Arbitrability Issue shall be without prejudice
and shall not constitute a waiver of any such objections, as Respondent
Rickey Newsome has preserved all rights and objections. Respondent
Rickey Newsome has also indicated that he is pursuing a stay of these
proceedings from the United States Supreme Court, pending resolution
of the Petition referenced above.
August 23, 2019

Claimants' responses to Respondents' jurisdictional objections to
arbitration and/or the arbitrator, and any motions/objections relative to
the Arbitrability are due. Claimants' answer to any counterclaim is due.

August 28, 2019

The Reply of Respondent to Claimant's response to any motion/objection
of Respondent relative to the Arbitrability Issue is due.

September 5, 2019

If necessary, Arbitrator will hold a telephonic hearing to resolve
Respondents' jurisdictional objections to arbitration and/or the arbitrator
and/or any motion/objection of Respondent relating to the Arbitrability
Issue.

September 10, 2019 Arbitrator shall decide any jurisdictional objections to arbitration and/or
the arbitrator and/or any motion/objection of Respondent relating to the
Arbitrability Issue in a written ruling.
See below.

EXPERT WITNESS DESIGNATION. The disclosure of expert witnesses shall
include the full name, address and phone number of the witness, a short
summary of anticipated testimony, a CV and a list of file materials reviewed
and copies of any other documents reviewed in preparation of. his
testimony must be disclosed. Each party shall be responsible for updating
its disclosures as new information becomes available. The duty to update
this information continues up to and including the date that hearings in this
matter terminate. Expert witness designations must be served by the
following dates:
(a)

Experts for parties seeking affirmative relief: By
the close of business on Sept. 16, 2019.

(b)

All other experts: By close of business on Sept.
23, 2019.

DISCOVERY PERIOD ENDS. All written discovery must be served
September 16, 2019
by this date with the responding party answering discovery within seven
days (7) of receipt of the discovery. Objections shall be filed within three
(3) business days and heard within the following three (3) business days.
Each side is limited to eight {8) interrogatories, eight (8) requests for
admissions and eight (8) requests for production.

Scheduling Order RSL Funding, LLC, et al. vs. Rickey Newsome

Page2

Sept. 27, 2019

DEPOSITION DISCOVERY ENDS. All depositions must be completed by this
date. Each side is limited to a total of four hours, with no more than three
(3) hours per witness.

Oct. 11, 2019

DISPOSITIVE MOTIONS AND PLEAS. Must be submitted to the Arbitrator.
Responses by October 16, 2019.

Oct. 4, 2019

CHALLENGES TO EXPERT TESTIMONY. All motions to exclude expert
testimony and evidence challenges to expert testimony must filed by this
date. Responses by October 11, 2019.

October 18, 2019

PRE-HEARING SUBMISSIONS. (1) The parties shall file with Arbitrator all
exhibits to be offered or used at the hearing pre-marked by the side with
numbers beginning with "Cl" for Claimants and "Rl" for Respondents. (2)
The parties shall each file lists of witnesses they intend to call at the
hearing whether by a document, deposition or live.
FINAL HEARING. The hearing will be held on October 21 , 2019, and
October 22, 2019 beginning at 9:00 a.m. daily CST in the offices of Scott
Link, 4400 Post Oak Parkway, Suite 2850, Houston, TX 77027. The parties
estimate the hearing will take no more than 2 days of hearing time.

October 30, 2019

Post-Hearing Submission, if any, by either side must be submitted to
Arbitrator.

October 30, 2019

Attorney's Fee Affidavit. The issue of attorney's fees will be submitted to
the Arbitrator via affidavit. Any party seeking attorney's fees will submit an
affidavit following applicable state law for submitting same by October 30,
2019 Any objections/responses to a filed attorney's fee affidavit will be
submitted by November 4, 2019.

The Arbitrator will issue a Reasoned Award by November 8, 2019. Any party can provide at
their expense a court reporter, in which event the transcript will be provided to all parties and
the Arbitrator. All deadlines stated herein will be strictly enforced. All filings in this matter
shall be simultaneously made by email with pdf attachment to all parties and the Arbitrator,'-,,
with follow up hard copies to every party should hard copies be provided to the Arbitrator or
any person. After such deadline, the parties may not file such motions except with the
permission of the Arbitrator, good cause having been shown. This order shall continue in effect
unless and until amended by subsequent order of the Arbitrator.
STANDING ORDER - Whenever any motion or request for any type of discovery is filed and
served on the opposing party, the respondent has seven (7) business days to file and serve his
response, including producing documents and witnesses. Any objections to discovery or
depositions shall be filed within three (3) business days of the receipt of same.
Any and all documents to be filed with or submitted to the Arbitrator outside the hearing:
a) Shall be given to the Arbitrator. COPIES OF SAID DOCUMENTS
SHALL ALSO BE SENT SIMILTANEOUSLY TO THE OPPOSING
Scheduling Order RSL Funding, LLC, et al. vs. Rickey Newsome

Page 3

PARTIES BY THE SAME METHOD OF DELIVERY PROVIDED TO THE
ARBITRATOR. There shall be no direct oral or written ex parte
communication between any party and the Arbitrator.
Settlement discussions shall not be provided to the Arbitrator.
Signed this_ day of July, 2019.

Scott Lrnk, ARBITRATOR
AGREED:

L. Andy Paredes
Attorney for Claimants

Earl Nesbitt
Attorney for Respondent
Rickey Newsome
Prose

Scheduling Order RSL Funding, LLC, et al. vs. Rickey Newsome

Page 4

FILE COPY

RE: Case No. 16-0998
COA #: 05-15-00718-CV
STYLE: RSL FUNDING, LLC v. NEWSOME

DATE: 6/28/2019
TC#: DC-14-14580-L

EXHIBIT 26

Today the Supreme Court of Texas denied the
Respondent's Motion to Recall Issuance, or Alternatively
Stay Enforcement, of the Mandate denied in the abovereferenced case.

MS. LISA MATZ
CLERK, FIFTH COURT OF APPEALS
600 COMMERCE, SUITE 200
DALLAS, TX 75202-4658
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 16-0998
COA #: 05-15-00718-CV
STYLE: RSL FUNDING, LLC v. NEWSOME

DATE: 6/28/2019
TC#: DC-14-14580-L

Today the Supreme Court of Texas denied the
Respondent's Motion to Recall Issuance, or Alternatively
Stay Enforcement, of the Mandate denied in the abovereferenced case.

MR. PATRICK PAUL SICOTTE
NESBITT, VASSAR & MCCOWN, L.L.P.
15851 DALLAS PARKWAY, SUITE 800
ADDISON, TX 75001
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 16-0998
COA #: 05-15-00718-CV
STYLE: RSL FUNDING, LLC v. NEWSOME

DATE: 6/28/2019
TC#: DC-14-14580-L

Today the Supreme Court of Texas denied the
Respondent's Motion to Recall Issuance, or Alternatively
Stay Enforcement, of the Mandate denied in the abovereferenced case.

DISTRICT CLERK DALLAS COUNTY
DALLAS COUNTY COURTHOUSE
GEORGE L. ALLEN, SR. COURTS BUILDING
600 COMMERCE, SUITE 103
DALLAS, TX 75202
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 16-0998
COA #: 05-15-00718-CV
STYLE: RSL FUNDING, LLC v. NEWSOME

DATE: 6/28/2019
TC#: DC-14-14580-L

Today the Supreme Court of Texas denied the
Respondent's Motion to Recall Issuance, or Alternatively
Stay Enforcement, of the Mandate denied in the abovereferenced case.

MR. E. JOHN GORMAN
THE FELDMAN LAW FIRM LLP
TWO POST OAK CENTRAL
1980 POST OAK BOULEVARD, SUITE 1900
HOUSTON, TX 77056-3877
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 16-0998
COA #: 05-15-00718-CV
STYLE: RSL FUNDING, LLC v. NEWSOME

DATE: 6/28/2019
TC#: DC-14-14580-L

Today the Supreme Court of Texas denied the
Respondent's Motion to Recall Issuance, or Alternatively
Stay Enforcement, of the Mandate denied in the abovereferenced case.

MR. EARL S. NESBITT
NESBITT, VASSAR & MCCOWN, L.L.P.
15851 DALLAS PARKWAY, SUITE 800
ADDISON, TX 75001
* DELIVERED VIA E-MAIL *

EXHIBIT 27
Order entered June 10, 2015

In The

Court of Appeals
Fifth District of Texas at Dallas
No. 05-15-00718-CV
RSL FUNDING, LLC AND RSL SPECIAL-IV, LIMITED PARTNERSHIP , Appellants
V.
RICKEY NEWSOME, Appellee
On Appeal from the 193rd Judicial District Court
Dallas County, Texas
Trial Court Cause No. DC-14-14580-L

ORDER
Before Justice Lang-Miers, Evans and Whitehill
Before the Court is Appellants’ Emergency Motion to Stay Trial Court Proceedings filed
June 9, 2015. We GRANT the motion and ORDER all proceedings in the trial court stayed
pending further order of this Court.
/s/

BILL WHITEHILL
JUSTICE

